<html>
<title> - IRAQ: NEXT STEPS</title>
<body><pre>[Senate Hearing 108-282]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-282
 
                  IRAQ: NEXT STEPS--HOW CAN DEMOCRATIC
                    INSTITUTIONS SUCCEED IN IRAQ AND
                            THE MIDDLE EAST?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



91-493              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Feldman, Dr. Noah, assistant professor of law, New York 
  University School of Law, New York, NY.........................     4
    Prepared statement...........................................     7
al-Khafaji, Dr. Isam, professor, University of Amsterdam, 
  Amsterdam, The Netherlands.....................................    12
    Prepared statement...........................................    15
Khouri, Mr. Rami G., executive director, The Daily Star 
  newspaper, Beirut, Lebanon.....................................    18
    Prepared statement...........................................    23
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Marr, Dr. Phebe, former senior fellow, National Defense 
  University; author and consultant, Washington, DC..............    26
    Prepared statement...........................................    33

                                 (iii)

  


                          IRAQ: NEXT STEPS--

  HOW CAN DEMOCRATIC INSTITUTIONS SUCCEED IN IRAQ AND THE MIDDLE EAST?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:36 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Brownback, Alexander, 
Biden, and Feingold.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. One of the most difficult 
challenges that we face in working to rebuild Iraq is 
establishing a new Iraqi Government with a constitution 
developed and approved by the Iraqi people. In United Nations 
Security Council Resolution 1483, adopted unanimously on May 
22, 2003, the international community called for the 
establishment in Iraq, ``of a representative government based 
on the rule of law that affords equal rights and justice to all 
Iraqi citizens without regard to ethnicity, religion, or 
gender.''
    The United States is committed to this goal. A number of 
nations want to accelerate this self-governance process and are 
calling for the transfer of full power to Iraqis within months. 
Yet United States officials estimate that preparing Iraq for 
democracy will take much longer. Ultimately, all agree that 
Iraqi citizens must take full responsibility for Iraq's 
governance as soon as possible.
    According to Ambassador Bremer, who testified before the 
committee this morning, the process to establish full Iraqi 
sovereignty is well underway. A critical first step was taken 
with the naming of the 25-member Iraqi interim Governing 
Council in July 2003. The Council's decision to set up a 
constitutional development committee is another important 
advancement, but the recent attempt to assassinate Dr. Al-
Hashemi, one of the few women on the Iraqi Governing Council, 
is reflective of the dangerous obstacles this process must 
still overcome.
    Although 95 percent of all Iraqis are Muslim, Iraq has been 
split for centuries along sectarian, ethnic, and tribal lines. 
Distrust among Shi'ites, Sunnis, Kurds, and other groups has 
been fueled by generations of political repression. Women have 
not participated significantly in governance in Iraq. In 
addition, until a vehicle for ``truth and reconciliation'' is 
found, deep divisions will continue to exist in Iraqi society 
between victims of the Hussein regime and the Ba'athist 
supporters.
    The dilemma of allowing Iraqis to freely choose their own 
form of government is that elections may produce an Iranian-
style theocracy or some other type of government that is 
inimical to the stable development of Iraq, to efforts against 
terrorism, or to other United States interests. Yet the 
legitimacy of any new government requires some degree of 
electoral involvement, clearly by the Iraqi people.
    The Coalition Provisional Authority cannot simply dictate 
the results, and Ambassador Bremer said as much today in 
another hearing in response to questions from Senators. The 
more control the CPA asserts, the less legitimate the process 
will be viewed by the Iraqis and perhaps by other Arab nations. 
We have asked our witnesses today to consider this challenge 
and to give us their guidance on how democratic institutions 
can succeed in Iraq, and more broadly, in the Middle East. We 
intend to explore what kind of democracy is possible in Iraq 
and what constitutional ideas are likely to be the most 
relevant. If democracy succeeds in Iraq, what effect will this 
success have on Iraq's neighbors and the prospects for 
democratic liberalization throughout the region?
    Our committee is pleased to welcome Dr. Noah Feldman, an 
assistant professor at New York University School of Law; and 
Dr. Phebe Marr, former senior fellow of the National Defense 
University and author of the recently published book, ``The 
History of Iraq.'' We are grateful for copies of the book. I've 
read the reviews and look forward to reading this volume. Dr. 
Rami Khouri, executive editor of The Daily Star in Beirut, 
Lebanon, is with us, as is Dr. Isam al-Khafaji, a professor at 
the University of Amsterdam, and former member of the State 
Department's Future of Iraq Project and Iraq Reconstruction and 
Development Council. These experts have a broad range of 
experience to draw on to assess prospects for the development 
of democracy in Iraq and the Middle East. We deeply appreciate 
their joining with us today.
    This hearing is the third in a series of hearings in the 
last 2 days that are designed to frame the issues that Congress 
must address as it considers President Bush's $87 billion 
supplemental funding request for Iraq. This request, as we 
heard from Ambassador Bremer this morning, includes assistance 
to reach out to the grassroots in Iraq and educate Iraqis on 
their historic opportunity to develop a new constitution and 
governance system.
    The stakes are clearly high. Ensuring that democratic 
institutions succeed in Iraq must be one of the highest 
priorities of United States policy in Iraq reconstruction. We 
look forward to discussing these issues with each one of you. I 
would like to call upon the witnesses in this order. First of 
all, Dr. Feldman, then Dr. al-Khafaji, then Mr. Khouri, and 
finally Dr. Marr, and I will ask you to proceed for a 
reasonable time. We will not have stringent time limits because 
our purpose is to hear you today to get the full benefit of 
your ideas.
    I will be joined in due course by colleagues, who may still 
be occupied at lunch or in the debate on the Appropriations 
bill, and when Senator Biden appears, he will be recognized to 
give an opening statement as the distinguished ranking member 
of our committee.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    One of the most difficult challenges that we face in rebuilding 
Iraq is establishing a new Iraqi government with a constitution 
developed and approved by the Iraqi people.
    In United Nations Security Council Resolution 1483, adopted 
unanimously on May 22, 2003, the international community called for 
establishment in Iraq of ``a representative government based on the 
rule of law that affords equal rights and justice to all Iraqi 
citizens, without regard to ethnicity, religion or gender.'' The United 
States is committed to this goal.
    A number of nations want to accelerate this self-governance process 
and are calling for the transfer of full power to the Iraqi's within 
months. Yet, U.S. officials estimate that preparing Iraq for democracy 
will take much longer. Ultimately, all agree that Iraqi citizens must 
take full responsibility for Iraq's governance as quickly as possible.
    According to Ambassador Bremer, who testified before the Committee 
earlier today, the process to establish full Iraqi sovereignty is well 
under way. A critical first step was taken with the naming of the 25-
member Iraqi Interim Governing Council in July, 2003. The Councils' 
decision to set up a constitutional development committee is another 
important advancement. But the recent attempt to assassinate Dr. Al-
Hashemi, one of the few women on the Iraqi Governing Council, is 
reflective of the dangerous obstacles this process must still overcome.
    Although 95 percent of all Iraqis are Muslim, Iraq has been split 
for centuries along sectarian, ethnic, and tribal lines. Distrust 
between Shi'ites, Sunnis, Kurds, and other groups has been fueled by 
generations of political repression. Women have not participated 
significantly in governance in Iraq. In addition, until a vehicle is 
found for ``truth and reconciliation,'' deep divisions will continue to 
exist in Iraqi society between victims of the Hussein regime and 
Ba'athist supporters.
    The dilemma of allowing Iraqis to freely choose their own form of 
government is that elections may produce an Iranian-style theocracy or 
some other type of government that is inimical to the stable 
development of Iraq, to efforts against terrorism, or to other U.S. 
interests. But the legitimacy of any new government requires some 
degree of electoral involvement of the Iraqi people. The Coalition 
Provisional Authority cannot simply dictate results. The more control 
the CPA asserts, the less legitimate the process will be viewed by the 
Iraqis and by other Arab nations.
    We have asked our witnesses today to consider this challenge and 
give us their guidance on how democratic institutions can succeed in 
Iraq, and more broadly, in the Middle East. We intend to explore what 
kind of democracy is possible in Iraq and what constitutional ideas are 
likely to be the most relevant. If democracy succeeds in Iraq, what 
effect will this success have on Iraq's neighbors and the prospects for 
democratic liberalization throughout the region?
    The committee is pleased to welcome Dr. Noah Feldman, an assistant 
professor at the New York University School of Law; Dr. Phebe Marr, 
former senior fellow at the National Defense University and author of 
the recently published book, The History of Iraq; Mr. Rami Khouri, 
executive editor of The Daily Star in Beirut, Lebanon; and Dr. Isam al-
Khafaji, a professor at the University of Amsterdam and former member 
of the State Department's Future of Iraq Project and Iraq 
Reconstruction and Development Council.
    These experts have a broad range of experience to draw on to assess 
prospects for the development of democracy in Iraq and the Middle East. 
We appreciate their joining us today.
    This hearing is the third in a series of hearings designed to frame 
the issues that Congress must address as it considers President Bush's 
$87 billion supplemental funding request for Iraq. This request, as we 
heard from Ambassador Bremer this morning, includes assistance to reach 
out to the grassroots in Iraq and educate Iraqis on their historic 
opportunity to develop a new constitution and governance system.
    The stakes in Iraq are high. Ensuring that democratic institutions 
succeed in Iraq must be one of the highest priorities of U.S. policy in 
Iraq reconstruction. We look forward to discussing these issues with 
you.
    The Chairman. But for the moment, I would like to recognize you, 
Dr. Feldman, and ask you to proceed with your testimony.

STATEMENT OF DR. NOAH FELDMAN, ASSISTANT PROFESSOR OF LAW, NEW 
          YORK UNIVERSITY SCHOOL OF LAW, NEW YORK, NY

    Dr. Feldman. Thank you very much, Mr. Chairman. May I begin 
just by saying how honored I am to be asked to appear before 
this committee and to discuss this important subject of 
developing democratic institutions in Iraq. I speak on the 
basis of recent experience in Baghdad, where I served as senior 
adviser for constitutional law to the Coalition Provisional 
Authority, and on the basis of continuing experience in 
consulting with the Iraqis themselves, who are participating in 
creating a constitutional process for the new Iraq.
    Mr. Chairman, there's a general question that looms over 
any discussion of democratizing Iraq or the region, and that 
question is whether Islam and democracy are compatible. I 
believe the answer to that general and enormously important 
question is a resounding yes, and elsewhere at some length in a 
book I wrote called ``After Jihad'' I tried to explain why I 
think this is the case.
    But my answer matters much, much less than the fact that 
the United States of America, by leading the coalition into 
Iraq, has now also answered this question in the affirmative. 
By removing Saddam Hussein and declaring our commitment to 
ensuring freedom and self-government for Iraqis, the government 
of the United States has now committed itself to the viability 
of democracy in Iraq, a country which is predominantly Arab and 
overwhelmingly Muslim.
    As a consequence, it is now in our vital self-interest to 
make certain that democracy in Iraq succeeds. If democracy does 
not succeed in Iraq, our presence will increasingly be 
perceived as imperial occupation throughout the region, and the 
deep skepticism about American motives, which already exists in 
the Arab and Muslim worlds, will turn increasingly and 
explicitly into condemnation, not merely of our presence, but 
of our long-term intentions in the region.
    We also, I believe, have a pressing moral duty to enable 
Iraqis to create a life for themselves that is better than the 
one that they suffered under for the last 35 years and under 
which they were living when we first entered the country.
    I believe that the basic state of affairs in Iraq today can 
be summed up relatively straightforwardly. There are two 
tracks, one political and one security-based. The security 
track is facing enormous setbacks and challenges. The political 
track, on the other hand, is going remarkably well, indeed much 
better than many would have predicted prior to the war.
    The main features of success on the political track are 
these: First, the Kurdish parties, specifically the PUK and the 
KDP, that had long been at odds with each other, are actually 
working extremely well together and are often offering a kind 
of leadership to the rest of the Governing Council that is 
reflected in the stance of unity that they've taken. Rather 
than calling for the independence of a Kurdish state, as some 
in the region feared, the Kurds are instead sticking to the 
vision of a federal Iraq.
    And although there are those people within Kurdistan who 
are very impatient for independence, the Kurdish leadership is 
telling its impatient followers not to rock the boat and to 
continue to participate in the project of a federal Iraq, as 
Kurdistan is now much closer to achieving a kind of provincial 
autonomy, if I can use that word, than it has ever been in the 
past. So the Kurds are continuing to participate in the process 
very, very well.
    Another important path of success in the political track 
relates to the Shi'i Islamic leadership in Iraq, which some 
feared might adopt a position of pro-Iranian declarations that 
what they really need in Iraq is an Islamic State governed by 
mullahs. That has not happened. The senior Shi'i religious 
leadership has made it very clear that they are committed to a 
country that is legitimately democratic with equal rights for 
men and women, for Muslims and non-Muslims, but that also has 
room for the expression of Islamic values, and they have 
emphatically rejected the failed Iranian model, in large part 
because they know it well themselves. Many of them have 
traveled to Iran and they understand that religion is less 
well-respected in Iran than it has ever been in the history of 
that country.
    That leads us to the question of, first, how security can 
be restored, and second and more importantly, how the 
constitutional process can go forward if security is restored. 
In my view, restoration of security in Iraq turns heavily on 
bringing into being a powerful Iraqi security force with the 
local knowledge and intelligence that would enable it to 
suppress terrorist attacks, whether they are coming from Sunni 
insurgents or coming from Iranian interlopers or al-Qaeda 
supporters. No matter who the source of these terrorist attacks 
and ongoing sabotage might turn out to be, Iraqis will be 
better placed to find that out than will anyone else who 
attempts to police the region, the country. So I believe that 
creating an Iraqi security force is absolutely necessary to 
bring that about.
    In the absence of law and order being restored in Iraq, as 
the chairman mentioned, the political process can collapse, 
because if enough Governing Council members are either 
assassinated or suffer attempted assassinations or are 
intimidated, nobody will want to participate in the political 
process. On the other hand, if the political process does go 
forward and if security does improve, here are the main issues 
that I believe will come before the constitutional body that 
comes into being.
    The first and most pressing is simply the question of how a 
constitutional convention should in fact be selected, how 
should the members be selected, and that's the job of the 
constitutional preparatory committee to answer right now. They 
are canvassing the country, they're having internal 
discussions. A full-blown election for the members of the 
constitutional convention would be a mistake. There isn't time 
to put together the basis for such an election, and in any 
event, basic preparatory questions like districting, the 
census, and so forth, which have to be answered by a 
constitution would already be serious problems in the run-up to 
any such constitutional process. So there's no reason to put 
the cart before the horse and insist on a national election at 
this stage.
    On the other hand, the greater the legitimacy of the 
constitutional convention selection process, the greater the 
likelihood of success for the eventual constitution, and there 
is real reason to make certain that the constitutional 
convention does not appear to be a body hand-picked by the 
coalition. To that end, it's absolutely essential that the 
coalition be open to whatever suggestions are put forward by 
the constitutional preparatory committee, including, for 
example, the possibility of a national referendum, as opposed 
to an election, to approve or disapprove an entire slate of 
nominated members to the convention, or alternatively, some 
combination of selection and election relying upon local 
councils throughout Iraq.
    The reason to be open to those suggestions is simply that, 
in their entire absence there is a significant chance that the 
constitutional convention could be seen as illegitimate the 
very moment that it came into place. I'm confident, however, 
that the members of the preparatory committee will come up with 
a suggestion that is plausible and acceptable to the coalition, 
and when that happens, we end up turning to the core question 
of what a constitution for a new federal Iraq will look like. I 
will address that question extremely briefly and then would be 
very happy to talk about it further should anyone wish to.
    First, federalism. The Iraqi constitution will be federal. 
On that much nearly everybody in Iraq at this point agrees, but 
as we know in the United States, to call something federalism 
tells you very little about what the actual content will be. 
Federalism conceals a thousand sins and there are many 
different possibilities.
    Many in Iraq would prefer to see a country composed of 18 
different governorates corresponding roughly to the 
governorates that presently exist, all federated as states in a 
federal union, but it is very difficult to find anyone in the 
Kurdish regions who will agree with that proposition. The 
position of almost all Kurds whom I've spoken to and whom 
anyone else I know has spoken to is that Kurdistan must be a 
unified region, and as for the other regions it is up to them, 
the Kurds will often tell you. They can choose for themselves 
how many regions they want to have or how many provinces they 
want to have.
    And the Kurds are in a position to enforce this demand to 
some degree simply because they have an operating regional 
government in the area that they controlled prior to the most 
recent war in Iraq. And in a worst-case scenario, the Kurds 
have the capacity simply to retreat back to their area, say 
they're participating in the constitutional process while 
actually vetoing any deal, and essentially continue with the 
state of affairs that they already had, and that's a very, very 
powerful stick for them to use. It would be drastic for them to 
use that, and I don't think the leadership has any intention of 
doing so, but that of course is something that exists in the 
background.
    So as a consequence I think it's increasingly likely that 
we're going to see a Kurdish region as its own region in a 
federal Iraq with the other regions divided accordingly. And if 
one Kurdish region is large, it is unlikely that others will 
want to have smaller states. That increases the likelihood of 
us seeing an Iraq that's divided into three or four or five 
parts, not an Iraq divided into 18 parts.
    The next issue that will be contentious and important will 
be the question of religion and government in Iraq and I will 
close with this issue. The overwhelming majority of Iraqis with 
whom I have spoken, and this is especially true of Shi'i 
Iraqis, want the constitution of Iraq to mention Islam as the 
official religion of the state, but they immediately add to 
that that the constitution of Iraq ought to be one that 
guarantees explicitly full religious liberty for all citizens, 
equality for all citizens, regardless of religion and 
regardless of sex, and furthermore that they believe those 
values to be in keeping with having Islam be the official 
religion of the state.
    That does not mean that they've thought through in any very 
complicated way how these two propositions will interact with 
each other, but they feel strongly that there are many states 
in the world that unlike the United States have established 
religions, and that at the same time can show the capability of 
respecting individual liberty and of equality. Now that's a 
tremendous challenge for Iraqis to accomplish, but this is a 
value that one sees again and again.
    And in Bahrain just last week I had the opportunity to meet 
with about 40 Iraqis from the southern part of the country who 
were themselves hand-picked by the coalition to come and 
participate in a seminar on democratic values along with 
several very distinguished judges from the federal district 
courts and the federal courts of appeal, and I had the 
privilege to conduct there a session on church and state, as it 
were, on religion and government in Iraq. And there was strong 
insistence from all of the Iraqis present, and they ranged from 
deans of law schools in Iraq to high school biology teachers, 
that Islam must be the official religion of the state, but that 
that was compatible with equality, with liberty, and with 
religious freedom for all.
    I think that's a vision that the United States should be 
eager to accommodate if in fact it has practical meaning. The 
hard part on this point in Iraq as on all the other points will 
be making certain that a constitution, no matter how well 
written it is, actually turns out to be enforceable in 
practice, and I'll close on that note. The best written 
constitution in the world will do no good at all absent 
institutions capable of implementing its principles. That means 
a strong and independent judiciary, it means a legislature and 
an executive branch that are accustomed to listening to the 
judiciary and are forced to do so by a strong separation of 
powers, and last but not least, it means a very strong civil 
society, which in my view we in the United States should be 
very eager to support and to fund, that exists independently of 
the government, and that can act as a watchdog and warn both 
other Iraqis and the world should circumstances arise where the 
democratic values of the constitution, which I'm confident the 
constitution will include, are actually put into practice. And 
with that I will thank you very much for your attention.
    [The prepared statement of Dr. Feldman follows:]

Prepared Statement of Dr. Noah Feldman, Assistant Professor of Law, New 
              York University School of Law, New York, NY

    Mr. Chairman and Members of the Committee,
    May I begin by saying how honored I am to be asked to appear before 
this Committee to discuss the important subject of the development of 
democratic institutions in the Arab and Muslim worlds, and particularly 
in Iraq. I have in recent months had the opportunity to participate 
firsthand in our early efforts to establish democracy in Iraq. I served 
as senior constitutional adviser to the Office of Reconstruction and 
Humanitarian Assistance, later renamed the Coalition Provisional 
Authority, between April and July 2003, and spent some five weeks in 
Baghdad in that position. I returned this past Friday from Bahrain, 
where I met with senior Iraqi officials including the Minister of 
Justice, the Chief Justice of the Supreme Court, and Judge Dara Nur al-
Din of the Governing Council, and discussed the progress of the 
constitutional process with them. I also addressed the question of 
promoting democracy in the Muslim world at some length in my recently 
published book, After Jihad: America and the Struggle for Islamic 
Democracy. My testimony today reflects the views I developed in the 
course of researching and writing that book, revised in the light of 
our experiences thus far in Iraq.
    There is a general question that looms over any discussion of 
democracy in the Muslim or Arab world, namely the question whether 
Islam and democracy are compatible. I believe that the answer to this 
general question is yes, and in my book I explain why this is so. But 
my answer matters much less than the fact that the United States of 
America, by leading the Coalition for the liberation of Iraq, has now 
also answered this question in the affirmative. By removing Saddam 
Hussein and declaring our commitment to ensuring freedom and self-
government for Iraqis, the government of the United States has 
committed itself to the viability of democracy in Iraq, a country which 
is predominantly Arab and overwhelmingly Muslim.
    It is now in the vital national self-interest of the United States 
to prove that democracy can succeed in Iraq. If democracy does not 
succeed there, our liberation will come to be perceived as imperial 
occupation, and the deep skepticism throughout the Arab and Muslim 
worlds about our motives will turn into increasingly explicit 
condemnation of our intervention in the region. We also have a pressing 
moral duty to enable Iraqis to create a life for themselves that is 
better than the one they suffered under thirty-five years of oppression 
and tyranny. By taking the reins of government in Baghdad, we also took 
on the responsibility for leaving the Iraqi people better off than we 
found them.
    Today, then, it would be academic in the worst sense of the word to 
ask whether democracy can succeed in the Arab world. Democracy must 
succeed in Iraq, and eventually elsewhere. Whether we supported going 
to war in Iraq or not--and there were reasonable arguments to be made 
on both sides of the question--we now must recognize the necessity of 
finishing the job that we started. I would like therefore to address my 
comments to the particularities of our efforts thus far to create 
lasting, stable, democratic institutions in Iraq, and to recommend the 
course of action most likely to succeed there.
    The basic state of affairs in Iraq today, I believe, can be summed 
up relatively straightforwardly. The Coalition is operating along two 
equally important tracks in Iraq: the security track and the political 
track. The security track is facing major challenges, while the 
political track is going to remarkably well. The setbacks we have faced 
on the security track have the capacity to undercut our progress on the 
political track. It is therefore of the utmost importance to achieve 
stability and security in Iraq: the future of democracy in that country 
depends upon it. The overwhelming majority of Iraqis have already begun 
to show themselves to be interested in democracy. But a small number of 
insurgents are capable of spoiling the possibility of law and order by 
disrupting the peace.
    Daily reports of shootings and bombings in Iraq reflect the hard 
reality that the Coalition led by the United States does not yet 
exercise a monopoly on the use of force there. Assassination attempts, 
like the one against Governing Council member Dr. Aqila al-Hashemi last 
week, threaten the democratic project itself. Life for ordinary Iraqis 
cannot return to normal so long as sabotage impedes reconstruction.
    But the Coalition's lack of progress on the security front in the 
last four months must not obscure the successes of the political 
process in that same time. The establishment of an Iraqi Governing 
Council; its takeover of the government ministries that deliver basic 
services; and its commencement of the constitutional process have 
proceeded apace despite significant security setbacks. Only by looking 
at the surprisingly smooth political track alongside the problematic 
security track can we shape a policy that will allow rapid transfer of 
sovereignty to an Iraqi government that can actually rule the country.
    An accurate assessment of the security situation must begin with 
the fact that essentially all Iraq's 60% Shi`is and 20% Kurds were 
happy to see Saddam go, and want the Coalition to remain long enough to 
prevent the Ba`Ba'ath party from re-emerging. The Sunni Arabs, on the 
other hand, who comprise another 15% or so of the population (the rest 
are Turkomans and miscellaneous Christian and other religious 
minorities), are the inevitable losers in any even quasi-democratic 
reallocation of power, since they took a grossly disproportionate share 
of the country's resources under Saddam. Of these Sunnis, many want the 
U.S. out, but only a few are presently willing to take up arms--
otherwise we would be seeing thousands, not dozens of incidents each 
week. Sunnis do not necessarily want Saddam back, but many think they 
can only benefit from the failure of democracy and the rebirth of some 
kind of autocratic Sunni state that would restore their privileges. 
Some have begun to frame their opposition in terms shaped by Islamic 
radicalism.
    It is also possible that some of the bombing attacks on targets 
like the United Nations headquarters have come not from disaffected 
Sunnis but from terrorists who have infiltrated easily over Iraq's long 
and unguarded borders. Iran has an interest in keeping the U.S. 
presence costly to discourage it from trying to replicate regime change 
next door. Al Qaeda, for its part, needs no excuse to attack the West, 
and would like nothing better than to make Iraq into the site of a new, 
Afghan-style jihad against foreign occupation of Muslim lands.
    The realities of anti-Coalition violence, both known and unknown, 
suggest a strategy for reducing the violence to a level compatible with 
exercising ordinary government in Iraq. Only Iraqi police and soldiers, 
knowledgeable about local conditions and populations, and with access 
to high-quality local intelligence, stand a chance of breaking Sunni 
resistance cells and identifying out-of-towners who might be Iranian or 
Al Qaeda agents. The call to internationalize the Coalition forces is 
an excellent idea for reasons of American foreign policy and cost-
reduction. International help could speed up reconstruction and take 
some of the security load off hard-pressed U.S. troops. But Indian 
troops would likely have no better luck than U.S. troops in combating 
terrorism. Broadening the Coalition will have no measurable effect on 
violence in Iraq, be it local or foreign-bred.
    French and German suggestions to speed up the process of 
transferring sovereignty to an Iraqi interim government would be just 
as unlikely to produce security gains. The tenor and resistance is not 
coming from Iraqis who would be sympathetic to such an interim 
government. Worse, without a re-constituted police force and military 
at its disposal, an interim body would be a travesty of a sovereign 
government. Actual control is the indispensable hallmark of 
sovereignty. Nothing could be worse for the future of democracy in Iraq 
than the creation of a puppet government unable to keep the peace and 
susceptible to the charge that it was sovereign in name only.
    The easily overlooked progress of the political process thus far 
points the way to a legitimate, elected Iraqi government that can 
actually rule. Since the fall of Saddam's regime in May, those Iraqis 
participating in organized politics have shown a maturity and unity of 
purpose that pre-war critics would scarcely have credited. The two most 
important Kurdish parties, the KDP and the PUK, have subordinated their 
historical rivalry and have acted in concert, casting a steadying light 
over the rest of the political scene and often taking the lead in 
coordinating policy among the members of the Governing Council. Far 
from insisting on secession and Kurdish independence, as some in the 
region feared, the Kurdish leaders are sticking to the vision of a 
federal Iraq, and urging their sometimes impatient community not to 
falter so close to achieving long-awaited freedom from autocratic Arab 
rule.
    More importantly for Iraq's democratic future, the Shi`i religious 
elites, and the political parties loosely associated with them, have 
consistently eschewed divisive rhetoric in favor of calls for Sunni-
Shi`i unity. Emerging as Islamic democrats, they have repeatedly 
asserted their desire for democratic government respectful of Islamic 
values, rather than government by mullahs on the failed Iranian model. 
As a result, they have been largely successful in marginalizing younger 
radicals like the rejectionist Muqtada Sadr, whose late-spring play for 
leadership of the national Shi`i community seems to have faded over the 
course of the summer. When Sadr wanted to organize an anti-Coalition 
protest in the holy city of Najaf, he was forced to bus in supporters 
from Baghdad, three dusty hours away. The Coalition has wisely declined 
to arrest Sack, and, his hopes for a living martyrdom denied, he 
increasingly looks more like a small-time annoyance than the catalyst 
of a popular movement of Shi`i anti-Americanism.
    The emergence of democratic attitudes among religiously committed 
Shi`is was underscored on Saturday in Detroit, where Da`wa Party leader 
Dr. Ibrahim Ja`fari, the immediate past Governing Council president, 
addressed the second annual Iraqi-American Conference. The largely 
Christian audience of Iraqi-Americans spent the morning fretting about 
the dangers of a constitution declaring Islam the official religion of 
Iraq, but treated Ja`fari to a standing ovation after he argued for a 
pluralistic, tolerant Iraq, in which full rights of citizenship would 
be exercised by Muslims and non-Muslims, men and women. The same proud 
insistence on the compatibility of a democratic, pluralist Iraq with 
Islamic values was sounded by forty Sh`is from southern Iraqi cities at 
a session on religious liberty I conducted last week in Bahrain as part 
of an ABA-sponsored program on constitutional values. Skeptical of 
arguments for strong separation of religion and state, they nonetheless 
took as a given that a country as religiously diverse as Iraq must 
ensure religious freedom--mandated, they said, by the Qur`an--and 
equality for all citizens regardless of religion.
    The next step in the constitutional process is for the 
Constitutional Preparatory Committee, named by the Governing Council, 
to complete its canvass of the country and propose a mechanism for 
naming the members of an Iraqi constitutional convention. The Committee 
needs to find a workable solution, short of a general election, to 
choose a legitimate and representative body. It is considering 
proposals such as a mixed election/selection procedure or a national 
referendum to approve or disapprove a complete slate nominated by the 
Governing Council.
    The Coalition is right to be wary of a national election to select 
the delegates to a constitutional convention. Iraq is not yet ready for 
such a national election. Political parties have not yet had enough 
time to develop. Organizing voter rolls would take time. To make 
matters even more complicated, voting districts would require deciding 
even before the election what districting would be fair. This would be 
very difficult to accomplish in the absence of a recent census. What is 
more, one of the main issues for a constitutional convention to discuss 
will be the creation of just rules for drawing districts, so it would 
be putting the cart before the horse to use existing districts, 
gerrymandered by Saddam to disenfranchise the Kurds, to select a 
constitutional convention.
    On the other hand, the Coalition should not automatically reject 
suggestions for a national referendum to approve or vote down a slate 
of candidates selected by the Governing Council. Without some component 
of public affirmation, there is the risk that the constitutional 
convention would be seen as illegitimate from day one. A widely 
distributed fatwa, authored by moderate Shi`i cleric `Ali Sistani, 
demanded some sort of public participation in the process of selecting 
the convention, and asserted that a convention handpicked by the 
Coalition would not represent the values of the Iraqi people. Although 
it is not certain that Sistani would actively condemn a convention 
selected by the Iraqi members of the Governing Council, a general sense 
among Iraqi elites is that some sort of public affirmation process 
would do much to enhance the legitimacy of the constitutional process. 
I am confident that a solution can be reached, and that the 
constitutional convention, once named, can begin its work of drafting a 
constitution for ratification by the Iraqi people.
    It is difficult to imagine elections being held under a new 
constitution before next autumn at the very soonest--and perhaps later 
still. The constitution will have to resolve complex questions of the 
boundaries of the provinces in a new, federal Iraq, not to mention 
ensuring religious liberty and equality and finding the right form of 
government to manage Iraq's distinctive ethno-religious mix. Getting 
the wrong answers to these questions quickly would be much worse than 
taking some time to get the right answers. But rushing would be a 
mistake in any event, because an elected Iraqi government would come 
too soon if it predated effective control of the country.
    Let me speak briefly to the constitutional structure and the 
difficulties it must resolve to establish stable and democratic 
institutions. Iraqis are coming to the realization that their 
government will have to be federal in order to accommodate the various 
regional ethnic and religious differences in their country. Many Iraqis 
would like to see eighteen federal states, corresponding to the 
currently existing eighteen governorates. It is difficult, however, to 
find even a single Kurd who is prepared to accept the division of the 
Kurdish region into several distinct states or provinces. Kurds are 
more likely to say that the Kurdish region must be a unified province. 
As for the rest of Iraq, the Kurds are prepared to leave it to Arab 
Iraqis to decide whether they want to have a single Arab region, 
separate central and southern regions, or a dozen different provinces. 
It will be extremely difficult to convince Kurds to accept the division 
of the Kurdish region. At present, the Kurdish region is governed by a 
centralized Kurdish Regional Government, and the Kurds can 
realistically boast at least 40,000 men at arms. It is therefore 
increasingly likely that constitutional negotiations will yield a 
unified Kurdish federal region. In any event, the shape of Iraq's 
federalism will be the single greatest and most complicated issue to be 
addressed in constitutional negotiations. It will take time to reach a 
workable consensus, and all parties will have to compromise. But the 
federal arrangement is far and away the most important for achieving 
the long-term goal of keeping Iraq is a single, unified country.
    It will be relatively easy for Iraqis to agree that their 
constitution should guarantee basic rights of liberty and equality for 
all citizens, regardless of religion or sex. The Islamic democrats who 
increasingly represent the Shi`i community believe that Islam 
guarantees such liberty and equality. The constitution will certainly 
guarantee religious liberty for everyone in Iraq. At the same time, it 
is unlikely that the majority of Iraqis would agree to the omission 
from their constitution of a provision describing Islam as the official 
religion of the state. Every Arab constitution has such a provision. 
The hundreds of Iraqis I have spoken to about this issue in Iraq, both 
Sunnis and Shi'is, balk at the idea that their constitution would 
declare the formal separation of religion and state. To ensure long-
term democratic stability in Iraq, we need to focus on making certain 
that the constitution guarantees effective liberty and equality 
regardless of religion or sex. If these provisions are firmly ensconced 
in the constitution and broadly accepted by the public, there is no 
reason that Iraq cannot be poor list and democratic even as it treats 
Islam as an official religion.
    The best written constitution in the world would be useless without 
effective institutions to guarantee its enforcement. The new Iraqi 
constitution must and will guarantee the separation of powers and must 
vest the spending power in the legislature, not the executive. It must 
guarantee an independent judiciary with the strength to stand up to the 
other branches. We must devote significant resources to encouraging the 
development of independent, nongovernmental civil society organizations 
that will take up the all-important task of monitoring the government 
to make sure the constitution is followed, and telling the world if it 
is being violated. Islamic groups have a natural head start in forming 
such organizations, so secular alternatives need to be encouraged. 
Right now, Iraq has what might be called the empty shell of secular 
civil society. Organizations like the National Lawyers Association or 
the National Physicians Association were highly organized under Saddam, 
but were in effect organs of the state. New elections have brought new 
leaders into power, but these organizations are still far from 
beginning to function as advocates for basic rights and democracy. They 
need to be assisted and trained in fulfilling this crucial role.
    In oil-rich states, government has long had the capacity to 
dominate society by paying off potential critics and suppressing 
others. To help save Iraq from reentering this destructive pattern, it 
is possible that the constitution should guarantee per capita 
distribution of oil revenues to individual Iraqi citizens. If this 
course is chosen, however, the constitution should also make it clear 
that the state can tax citizens on their income, including income 
derived from the government itself. The government of Iraq will have 
huge revenue needs in the years ahead, both for reconstruction and 
security. It would be a serious mistake to hamstring a future Iraqi 
government by depriving it of its most steady source of revenue.
    Let me emphasize that solving the security problems by rebuilding 
the Iraqi police and army must be the Coalition's highest priority in 
the months ahead. This will cost a great deal of money, and create the 
long-term risk that reconstituted Iraqi armed forces might some day 
make their own grab for power, as the army has done repeatedly in 
Iraq's history. But this risk must be taken, because if the security 
situation is not brought under control, it has the capacity to destroy 
the political track. Leaders like the assassinated Ayatollah Muhammad 
Baqer al-Hakim, willing to work with the Coalition despite initial 
reservations, are not easily replaced. The enemies of the democratic 
process, whether Sunni-Iraqi or foreign, know that by violence they can 
deny the Coalition the stability that is prerequisite to law and order.
    With progress on the security track, democracy in Iraq remains 
achievable. Without it, America's pragmatic and moral duty to help 
Iraqis to democracy will be almost impossible to fulfill. Iraqis are 
already on the track to self-government--but we need Iraqi security 
forces, not just international help, so we can establish the rule of 
law and restore sovereignty to Iraqi hands.
    Once security is restored, however, there is reason for cautious 
optimism about the capacity of the constitutional process to bring 
about a democratic, federal settlement in Iraq, one that will ensure 
individual liberties and equality for all Iraqis regardless of religion 
or sex. By devoting our resources not only to the governmental process 
but also to the development of a vigorous civil society, we can help 
create conditions for democracy to flourish. With almost no outside 
help, there are well over one hundred newspapers being published in 
Iraq today. Much of what they publish is unreliable or worse, but that 
is, in its very nature, the free marketplace of ideas. Democratic ideas 
will win the day in Iraq so long as security exists on the ground 
there--not because anybody puts a thumb on the scale, but because in 
today's world, democracy is the only form of government that has shown 
the capacity to give its citizens liberty, equality, and a decent way 
of life. Iraqis already understand this fact, and they want democracy. 
They need our assistance to let democracy take hold and make it stick.

    The Chairman. Well, thank you very much, Dr. Feldman, for 
that testimony. At this juncture, I'd like to recognize my 
colleague and distinguished ranking member, Senator Biden, for 
his opening statement and then we'll proceed with the testimony 
of the witnesses. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. I have had the 
opportunity to spend some time with the witnesses in the past. 
It's great to have them back here. I will save my comments to 
the questioning period because I'm anxious to hear what they 
all have to say and give everyone a chance to speak.
    The Chairman. Thank you very much. Dr. al-Khafaji.

  STATEMENT OF DR. ISAM AL-KHAFAJI, PROFESSOR, UNIVERSITY OF 
             AMSTERDAM, AMSTERDAM, THE NETHERLANDS

    Dr. al-Khafaji. Thank you, Mr. Chairman, distinguished 
members of the committee. I'm very much honored by this 
invitation of yours for me to testify before this distinguished 
place and I would like to express my admiration, my deep 
admiration of the sharp, timely, and frank questions and 
comments that all of you have raised in the morning session 
with Ambassador Bremer. I'm sure that if the Iraqi people were 
allowed to have access to these comments, they would be much 
more appreciative of the role that the U.S. Congress, the U.S. 
institutions, and the U.S. public are playing in favor of the 
Iraqi people and of our joint interests.
    Mr. Chairman and distinguished members, I have my written 
comments available to you. I hope you've had the chance to look 
at them so I will not dwell on the opening statements about why 
I see that despite the huge obstacles, democracy is possible, 
is compatible with the so-called absence of prior democratic 
institutions, Islam and mainly the much talked-about 
heterogeneity of the Iraqi people, which I do not see as 
heterogeneity, I see as an advantageous point because we do not 
have in Iraq, unlike any other Middle Eastern country, Arab or 
non-Arab, any bloc or community that can claim to have a 
dominating majority, and thus imposing this dominating majority 
as a kind of a tyranny of the majority and suppressing the 
rest.
    I can see that there is much to learn from the United 
States and so much from the U.S. experience and the fact that 
actually democracy is built upon an existence and recognition 
by all communities that they cannot live without each other.
    In the history of Iraq, and I'm not trying to draw any rosy 
picture, unlike many other Middle Eastern countries, there is 
no--and I'm talking from modest knowledge of the 18th, 19th, 
and 20th centuries--there is no episodes of civil, not state-
sponsored violence between Shi'is and Sunnis, Arabs and Kurds. 
There are some unfortunate incidents between other communities, 
but certainly not between Shi'is and Sunnis or between Arabs 
and Kurds in general.
    So that being said, I'm not trying, once again, to draw a 
rosy picture. I'm trying to show that what I feel and many 
Iraqis feel that the sources of the lack of consensus among 
Iraqis does not lie in the heritage of Iraq, the cultural 
heritage, rather it is in the heritage that was left to us from 
an ugly tyranny of 35 years, which atomized the population, 
made them reliant on the state, a state that has aggravated the 
perception, the disillusion that the people owe the state, 
rather than the state owes them, their welfare and their well-
being through handing over largess of the oil money.
    And it's here that I think that we have so much to learn 
from the U.S. experience, from the U.S. presence in Iraq, and I 
come here to what I feel as the bitter lessons, the bitter 
lessons in the sense that while, as you very promptly said, 
that time is slipping from our hands, while time is not in our 
hands, still we have a window of opportunity that's still 
closing but there is a slight ajar.
    I think that, as my colleague Dr. Feldman, whom I had the 
privilege of being together with in Baghdad, I stayed behind 
him, but I had to resign after noting that there was no role 
for Iraqis to play under the Coalition Provisional Authority, 
and I kept in touch with the situation, in intensive touch with 
the situation in Baghdad, and I feel that giving me the 
privilege of testifying before you may allow me some 
opportunity to convey some of the stories that Iraqis would 
like the world, and especially the U.S. Congress to hear about 
them.
    I feel that the basic issue about the presence of the 
coalition authority and the future of Iraqi/American relations 
lies exactly in the message that you and all of the free world 
would like to send to the Iraqi people, and that is that we are 
changing from a system of tyranny to a diametrically opposed 
system based on the rule of law, on democracy, on putting the 
fate of Iraq into the hands of the Iraqi people, to use 
President Bush's words.
    Up until now, I'm sad to say that Iraqis do not feel that 
and today's testimony by Ambassador Bremer was saying basically 
the same, that a constitutional committee is being appointed by 
the Coalition Provisional Authority with the help of a 
Governing Council that is appointed and not elected, that this 
committee, appointed committee, with due respect to all and 
each of its members, has not been elected by the people but 
they will have the right to draw a constitution that will be 
thrown to the people at a yes or no referendum. And I think 
this is not the way to send a message that the United States is 
building a fraternal, democratic nation in Iraq and the Middle 
East and to send a message to the other Middle Eastern 
countries.
    The second one is the way that the social and economic 
issues and decisions are being taken, and I'm very sad to say 
that I have to disagree with what Ambassador Bremer said. I 
just returned last night from the way to see many humiliating 
scenes in the meetings between the IMF and the Iraqi newly 
appointed governors and administrators, the way that our 
colleagues, the senior advisers at the coalition interrupt 
publicly any statement given by any Iraqi newly appointed 
minister. I'm sorry to say that, but the facts must be known to 
all of you because you are the representatives of the United 
States people.
    To say that is not just to repent or to complain but to say 
that still we can, the Coalition Provisional Authority can 
change track, and the first step, I think, is as my esteemed 
colleague has said, is to Iraqize the security situation, not 
in the sense that was said by a high-level official 10 days 
ago, to let Iraqis give us the information or inform about the 
remnants of Saddam's regime but by allowing them to draw 
policies on security. That will save the United States blood 
and much, much money, that by giving the United States, the 
security officials the role of monitors, advisers, educators in 
how the new security force can abide by the law, not be over 
the law, but in the meantime can enforce security issues in 
Iraq.
    And this is quite a different thing from what we heard this 
morning or we have been hearing all over in the past that 
Iraqis must come and inform the coalition of the remnants of 
Saddam's regime. This is a totally different issue by allowing 
Iraqis to draw the security policy.
    Second, we can move from that--and this is the main issue I 
think--to creating a consensus that no social contract can be 
built only upon diversity. Diversity should be unified, must be 
unified, within some kind of a social contract, and that could 
only be done through calling for a constituent assembly that 
will draw the constitution, rather than appointing a committee, 
no matter how prestigious, no matter how sound and solid the 
knowledge of these colleagues, I think that the legitimacy of 
that constitution and the promulgator of that constitution will 
be in doubt among Iraqis. So I think the step is toward a 
constituent assembly which still will be a temporary, a 
transitional body whose sole mission would be to draw the 
constitution, appoint a provisional government, and work with 
the United States coalition authority gradually to hand over 
power to the Iraqis.
    Along like that, I think transitional justice is where our 
friends in the United States can help us, by drawing a system 
of transitional justice that we worked upon that many Iraqis, 
with the help of our colleagues at the State Department, worked 
upon last year. I would be very much willing to talk about it, 
but I can see that my time is coming to a close.
    The Chairman. Go ahead.
    Dr. al-Khafaji. The last thing then and then I will close 
is the economic affairs of Iraq, the running of the economic 
affairs of Iraq. Today I have nothing to add to your sharp 
remarks today in the morning. I can not agree more with what 
has been said, not in the sense that there are bad intentions 
behind the way the bidding and contracting is being taken or 
the decisions have been taken, but I think that if once again, 
if we are talking about steering Iraq toward democracy first, 
only an elected government can say that we have signed laws. 
Even in the 1920s, the British High Commissioner used to sign 
decrees, and today we've heard several times Ambassador Bremer 
signing laws, and these are not laws to direct the day-to-day 
affairs of Iraq. These are laws that will have grave 
consequences to the better or worse of Iraq and the Iraqis must 
know who is taking these decisions and how.
    And unfortunately I can say that the cabinet, the Iraqi 
cabinet, all the Governing Council, have very little to say 
about how these decisions are being made. There is some 
consultation, no formal consultation, no sitting on committees 
by Iraqis, who just until a few months ago the world, the 
media, and the U.S. administration was talking about the 
educated, the talented, the nation that was threatening the 
world with weapons of mass destruction. So this is not a matter 
of nation-building.
    We have experts, and it's here that I think that the 
allocation of the budgets, and I totally agree with Ambassador 
Bremer that we might be reticent in handing the monitoring of 
these $20 billion or other allocations, but I would be very 
happy to see a standing committee, subcommittee, from the 
Congress sitting in the headquarters of the Coalition Authority 
in Baghdad monitoring and approving the contracts that are 
being given.
    There are some details that show that the value of these 
contracts that are being awarded and given, the value that's 
reaching the Iraqi population is a trickle of what's being 
reached. I'm not alluding to the integrity of the appropriation 
of that, but simply because giving it in a time of war to an 
Iraqi is one thing, and giving it to a foreign company, who 
would add so much premium on working in our zone with a 
different waste structure and salary structure would add so 
much to the tax bill on the American taxpayer without in the 
meantime yielding even an equivalent amount of the benefits to 
the Iraqi people.
    I think that this, the appropriation and allocation of the 
U.S. taxpayers' money and the coming international authority 
monitoring board, this should be an issue that others would be, 
must be, involved, and by others we shouldn't have in mind only 
the U.S. or the U.N. There are many others. The Iraqization, 
the involvement, and empowerment of Iraqis, I think, is not 
only a cheaper way but it's the way that will give the Iraqis a 
totally different message of what the United States wants from 
Iraq and that will propagate to the entire region and I think 
to the rest of the world. Thank you.
    [The prepared statement of Dr. al-Khafaji follows:]

  Prepared Statement of Dr. Isam al-Khafaji, Professor, University of 
                 Amsterdam, Amsterdam, The Netherlands

    Mr. Chairman, Distinguished Members of the Committee:

                           CASE DESCRIPTION:

    Skeptics of Iraq's ability to affect a transition to a stable and 
democratic country have raised several arguments that most of you are 
familiar with by now: the country's lack of prior democratic 
institutions or experience, Muslim religion as an obstacle to 
democratization, and Iraq's so-called ``heterogeneity'', i.e. being a 
multi-ethnic and multi-sectarian society.
    While many of these arguments may seem to be empirically validated, 
it is the conviction of the present speaker that none of them stands to 
rigorous test. Over the past three decades, countries with no prior 
democratic experience, such as Russia, Spain, Portugal, and much of 
Eastern Europe, have shown that while having past democratic principles 
should be very helpful, it is neither a necessary, nor a sufficient 
condition: More recently, some skeptics about Iraq's ability at 
democratization raised the interwar democratic experience of Germany, 
the Weimar Republic, as a legacy from which Post-WWII Germany could 
draw to establish its modem democratic system. If this heritage is of 
any relevance in the context, then it may be worthwhile mentioning that 
Iraq had a longer period of parliamentary under the constitutional 
monarchy between 1921 and 1958.
    To the argument that Islam is an obstacle to democratization, I 
would only remind the esteemed audience that five decades ago, standard 
political theory texts used to ascribe Latin America's (as well as 
Portugal's and Spain's) resistance to democratization to Catholicism. 
Orthodox Christianity and Confucianism were viewed similarly in the 
cases of Eastern Europe and East Asia respectively. The fact is that 
religious authority everywhere seems fiercely resistant to 
relinquishing power to secular power. Viewed as sets of powerful 
philosophical teachings, most world religions contain elements that can 
be used or manipulated to legitimate tolerance or tyranny, and peace or 
war.
    The US' experience can provide the Iraqi people, and many other 
societies, with invaluable lessons on how to build a tolerant and 
democratic system that firmly separates state from Church without in 
the meantime rejecting the latter as the French model does or treating 
the system of belief of the majority as a ``state religion''.
    Finally, Iraq's multi-ethnic and multi-sectarian composition can 
play a powerful role in laying the foundations of a democratic system, 
rather than being an obstacle to it. For unlike any other country in 
the Middle East (with the exception of Lebanon), Iraq has no single 
ethnicity/sect can claim a dominating majority over all others, with 
Arab Shi'ites composing around 50-52 percent of the population, Sunni 
Kurds 20-22 percent, Arab Sunnis around 20 percent, Turkoman Shi'ites 
and Sunnis some 5 percent and Christian Chaldeans, Assyrians, Armenians 
and Arabs around 3 percent.
    To this must be added the fact that unlike the religiously 
polarized Lebanon, no single religious or secular ethnic/sectarian 
authority can claim to be the representative of the majority of the 
members of ``their'' respective communities, because besides ethnicity 
and religion, loyalties in a complex and highly urbanized society like 
Iraq are formed along regional, professional and ideological lines.
    Rather than viewing this situation as disruptive, this state of 
affairs means that unlike Iran or Saudi Arabia, no single community or 
ideology in Iraq can impose its tyranny in the name of representing the 
majority.

                         DESCRIBING THE PROBLEM

    The above description is not intended to draw a rosy picture of a 
situation that is far from ideal. It is rather intended to direct your 
attention to what I think is the sources of the lack of a consensus 
among Iraqis. And once again, it is from the US experience, as well as 
from those of others, that we learn that before or alongside the 
establishment of diversity and pluralism, no democracy can survive 
without a social contract which stipulates what unites the diversity 
and from which common rules and laws can be drawn.
    The Ba'athist regime has forcibly imposed a destructive concept of 
unity among Iraqis which sought, and succeeded to a certain extent to 
atomize the population and linking the individuals directly to the 
state. During the rising days of that regime, until circa the mid 
1980s, this concept tried to impose homogeneity on the population by 
marginalizing and suppressing entire communities and regions. This 
could not have been made possible without the tremendous resources that 
accrued to the Iraqi state thanks to the oil extraction sector whose 
revenue yielding potential had very little to do with the productive 
capacity of the people. A welfare state made of huge numbers of civil 
and military and paramilitary servants and a large stratum of wealthy 
businessmen living on state contracts that was handed according to 
political, family and clannish cronyism deprived Iraqis from any 
autonomy and enhanced a perception among them that the state does not 
owe anything to the people. Rather it was they who owed their living to 
the state. Only after the Ba'athist state drained Iraq's resources and 
had to withdraw from providing the basic social and economic services 
did atomized individuals turn back to revive their sub-national 
loyalties in search of protection and basic services.

                         REMEDYING THE PROBLEM

    Iraqis cannot hope to reach a modern social contract without a 
long-term modernizing project aimed at engaging them in rebuilding 
their devastated economy and society. With the huge demands on the oil-
revenue, the days of the parasitic welfare state are over, and it is 
would be very misleading and dangerous to revive any illusions among 
them on ``oil funds'' that would bring them toast and honey without 
hard work.
    But before this reconstruction project can effectively roll on, 
security and the rule of law must be firmly established. And the 
Coalition Provisional Authority (CPA) is in a unique position to help 
us in establishing this complicated project by seriously revising some 
of its policies that sent a wrong message to the Iraqis and left them 
to question the sincerity of the claims to liberate them and putting 
their fates into their own hands.
    A quick and systematic, but not hasty, process to ``Iraqize'' the 
functions that the CPA is performing now must begin by admitting that 
not only implementation of security policy should be handed to the 
Iraqis themselves, but also thawing and designing that policy, with the 
intensive help and advise of the Coalition forces. Foreign armed 
forces, no matter how technologically advanced, can never bring 
security. Rather, their wellbeing and safety will become a security 
problem and a huge drain on the US budget which can only escalate with 
time.
    The justifiable fears among US policymakers as well as among Iraqis 
that relying on militias and tribal chiefs in building and reorganizing 
a modern police and security force can lead to disruptive results can 
be overcome by empowering the already functioning provincial councils. 
These councils can draw from a huge pool of unemployed ex-soldiers and 
policemen by announcing a crash plan to recruit members of a national 
police force proportionate to the rough population of each governorate 
as a first step to merge these provincial police forces into one 
national police force. The names of the new applicants must be made 
public and citizens must be encouraged to object any of the applicants 
if they have sufficient evidence that he had been implicated in past 
violations of human rights.
    Within a month time, the role of US forces can be transformed from 
confronting the population to monitoring the newly formed police force, 
training, educating and imposing discipline on them. The Coalition 
troops can be redeployed to safeguard Iraq's borders, until an Iraqi 
army can stand on its feet.
    Only when palpable achievements on the security front can be made, 
would the civil administration and economic enterprises be able to 
resume their normal functions, and a political process that would 
enable Iraq to regain its sovereignty, as a country in transition to 
democracy can be launched.
    How long would this process take? A timetable of less than one year 
can ensure achieving the following functions:

                         THE POLITICAL PROCESS

          1. Relying on the food for oil rationing cards, where all 
        resident Iraqis were registered, a process for the election of 
        a constituent assembly can be initiated and called for by the 
        end of this timetable.

          2. A national committee composed of official and non-
        governmental bodies can call on Iraqis in the Diaspora, to 
        register in the Iraqi embassies and other centers to be 
        established in the major centers where they cluster.

          3. A constituent assembly would be elected in 6-7 months 
        after the establishment of basic security. The role of this 
        assembly is to approve a draft of a permanent constitution and 
        to appoint a transitional government.

          4. The legal basis along which Iraq is run until approving a 
        permanent constitution is the interim constitution that was 
        adopted following the 1958 revolution.

          5. The US, while recognizing the outcome of these elections 
        and the ensuing government, will declare that it will keep a 
        reduced military presence until a fully constitutional system 
        is in place to negotiate and establish the future relationship 
        between the US and Iraq.

                          TRANSITIONAL JUSTICE

          1. Alongside the political process, a transitional justice 
        system made up of reformed and reeducated Iraqi judges, 
        Coalition advisors, and representatives of political parties 
        and NGOs would be set up in each of Iraq's governorates. All US 
        prisoners of war would eventually be turned to these courts in 
        order to try them.

          2. An interim law on trying crimes committed by the Ba'athist 
        regime can be worked out by representatives from the entities 
        mentioned in the previous paragraph. As a starting point, the 
        reports produced by the workshops on transitional justice in 
        2002 can be used.

          3. The law must clearly state the nature of punishable crimes 
        and the levels of punishment.

          4. Prosecuted members would be declared ineligible for 
        running to the election of the Constituent Assembly.

          5. Citizens would be called upon to hand whatever information 
        they may have on past crimes, and the acquisition by non 
        judicial bodies of files and documents pertaining to the 
        Ba'athist regime would be declared illegal.

               CIVIL SERVICE AND ECONOMIC DECISION MAKING

          1. The US must clearly and explicitly make its vision, 
        objectives and goals regarding its economic relations with Iraq 
        known to the Iraqi people.

          2. To fill their promises of radically departing from past 
        tyrannical practices, the US and any interim Iraqi body must 
        refrain from approving laws or regulations that have long-term 
        effects on the structure of Iraqi society and economy without a 
        transparent and accountable mechanism.

          3. Iraqi business community and the relevant ministries and 
        public bodies must be fully empowered to supervise, monitor and 
        approve all reconstruction tenders.

          4. The CPA should cede more authority to the proposed 
        International Advisory and Monitoring Board, which is composed 
        of representatives from the World Bank, the IMF, the UN and the 
        Arab development fund. In the meantime, an extremely positive 
        message can be made if the US, through the CPA, champions the 
        cause of involving Iraqis as full and observer members of this 
        board.

    The Chairman. Thank you very much, doctor. Let me mention 
that all of the four statements of the witnesses will be made a 
part of the record. Therefore you may either deliver the 
statements orally in full or you may summarize them in your own 
words as you hear each other testify. But we want the prepared 
statements that you have given to us, and which are very 
important, to be printed in full in the permanent record. I'd 
like to call now Dr. Khouri.

 STATEMENT OF MR. RAMI G. KHOURI, EXECUTIVE EDITOR, THE DAILY 
                STAR NEWSPAPER, BEIRUT, LEBANON

    Mr. Khouri. Thank you very much, Mr. Chairman, Senators, 
ladies and gentlemen. I also am deeply honored to be part of 
this process and I'm awed by the power of the American 
democratic ideal, and to watch it in practice this morning was 
quite an impressive experience for me. I've never attended a 
congressional hearing before. I've only watched them on TV and 
they're much more interesting in person.
    But I would make a point which would summarize maybe 
everything I want to say. I've spent my whole life between the 
United States and the Arab world. I'm a Christian Palestinian 
Jordanian. I'm about as Christian as you can get. I'm a Greek 
Orthodox from Nazareth and you don't get more Christian than 
that. That's where it all started and our family has lived in 
Nazareth for 400 or 500 years. I'm a Jordanian national, I'm an 
American citizen by being born here, and my whole life has been 
between the United States and the Middle East and I can tell 
you that as impressive as this hearing is and the democratic 
ideal that it represents where you hold accountable and 
question your own public officials and at the same time bring 
in independent experts from other countries, from the United 
States, to gain the best knowledge and viewpoints that you can 
get, this is a highly institutionalized formal and public 
process.
    In the Arab countries exactly the same thing happens, but 
it's not institutionalized and it's not formal and it's never 
public. But I would make the point to you that if you are 
trying to spread democracy in the Middle East, as I have been 
and my colleagues and millions of us in the Arab world have 
been trying to do for my lifetime and for many lifetimes before 
mine the key issue to keep in mind is the difference in the 
cultural traditions and values between American society and 
Arab and Middle Eastern society as a whole.
    I'm going to speak mainly about the Arab world because 
that's the area I know best, but what I'm saying also applies 
to Turkey and Iran and parts of Israel and other non-Arab 
Middle Eastern countries, but this difference between the 
manner in which people manifest democratic ideals is, I think, 
the linchpin to a successful promotion of democracy in Iraq and 
throughout the Middle East.
    I think the objective is noble and it is appropriate and it 
is achievable. The demand among the people of our region in the 
Middle East for democratic institutions is tremendous and it 
has been going on for years and years and years, though it has 
not been widely reported in the American media particularly.
    The men and women in the Middle East and the United States 
who seek to achieve this worthy goal of a democratic Middle 
East face a landscape that is littered with obstacles, and 
these obstacles can be traced to two primary sources. The main 
source is the political regimes and dynamics within the Middle 
East, but the other source is the external support for these 
autocratic, non-democratic, non-accountable, non-participatory 
political regimes, and that includes the long-term support from 
the United States but also from the Soviet Union and from other 
countries.
    Most of the constraints of democracy in the Middle East are 
man-made and they can be removed if we forge appropriate 
policies and we work diligently and consistently. None of the 
constraints are due to our genes, to our religion, to our 
water, or to our environment. All of the constraints are man-
made. They are a product of modern history and I would add to 
the history lesson that Ambassador Bremer gave you this morning 
by going much further back to remind you in a rather cruel 
irony--cruel irony in the sense that the operation of the war 
in Iraq to liberate Iraq was called Operation Iraqi Freedom--I 
would remind you that the first documented use of the word 
freedom, according to scholars, is from the Mesopotamian city-
State of Lagash in southern Iraq today, around 1250 B.C. It's 
the first time in recorded human history that the word freedom 
was ever used, and this was in Lagash.
    Most of the values that underpin Western republicanism, 
whether you're talking about representative assemblies such as 
yours, contractual obligations under the rule of law, naming 
the rights of individuals and the rights of sovereigns and the 
rights of monarchs and the relationships between them, judicial 
systems to adjudicate disputes between people, most of these 
values can be traced historically back to the ancient Orient, 
to the Hammourabi code, to Mesopotamia, to Assyria, to Babylon, 
to the Biblical kingdoms.
    Now I say this only to show that there has been a 
tremendous history of exchange between our region in the Middle 
East and the United States and the Western world, in Europe 
initially and then in the United States and North America. This 
long tradition is one that allows us to identify certain values 
and certain principles that underlie the formal processes of 
sovereignty and statehood and the institutions of democracy, 
such as Parliaments and elections and political parties and 
judicial systems.
    I would say that if the United States really wants to 
promote democracy in the Middle East, and I'm not certain that 
this is a clear national objective, this is something that 
history will show most of the people in our region are 
skeptical, but if the United States really is serious about 
promoting democracy as a long-term goal, I would suggest that 
it would do well to start by correctly analyzing three critical 
factors: Why has democracy not spread throughout the Middle 
East? What has been the United States' role in this lack of 
spread of democracy in the Middle East in the modern history? 
And what do the people of the region themselves feel about 
democracy and what are they doing to achieve it?
    There are tens of millions of people in the Middle East who 
have been working for democracy in civil society and human 
rights and equality and other values that we all cherish, but 
these people have been mostly silenced by their own governments 
and they have been mostly ignored by the American Government 
and other governments around the world. The struggle for 
democracy in the Middle East in the last half a century has 
been almost totally neglected, if not implicitly subdued, by 
the foreign policies of Western powers and Eastern powers, when 
those Eastern powers existed.
    I would say there are five main reasons why we haven't had 
very democratic institutions in the Middle East. The first one 
is the legacy of autocratic, sometimes authoritarian rule, in 
our region, and these governments have been sustained, as I 
said, by foreign aid and foreign governments. Arab democrats 
have never had a chance, they never had a chance, and they are 
understandably skeptical today when they hear the United States 
saying that it wants to promote democracy. Washington's 
credibility on the promotion of democracy in the Middle East, 
like its track record, is very thin. Despite this, there are 
tens of millions of people in the Middle East who want you to 
succeed and who are keen and anxious to work with you to 
achieve this goal.
    Second reason is the long years of the cold war reinforced 
the status quo and the frozen political system in the Middle 
East. The Arab/Israeli conflict is a third reason. It gave many 
countries the excuse to focus on militarism security rather 
than on promoting domestic democracy.
    The fourth reason is the post-World War I colonial legacy 
which created most of these countries, installed leaderships 
that were hand-picked by the Europeans, and basically put all 
the resources, military, economic, political, in the hands of 
small elites who were hand-picked by the Europeans in a process 
that is frighteningly similar to what many people see happening 
in Iraq today, Western powers coming in on the back of their 
armies, choosing local people, and having them set up 
institutions and then giving them money and letting them run 
the show. This is frighteningly similar to what the British and 
the French did in the eyes of many people in the region and 
that is why people are raising these issues of concern.
    And the fifth reason that we haven't had democracy is that 
most governments and people in the region have said, well, 
given these other four obstacles, let's just get on with our 
lives, feed our children, educate our kids, build a house, get 
a job, and let's get on with the daily business of taking care 
of our families or the government saying security issues are 
paramount and then we'll deal with democracy later.
    The net result of these and other trends has been that 
security-minded governments have completely dominated the 
Middle Eastern societies and most aspects of life. Middle 
Eastern democrats have struggled unsuccessfully against these 
odds for many decades, just as their counterparts had done for 
many years in the Soviet Union. But some improvements have 
occurred since the mid-1980s. Economic pressures have forced 
many Arab and Middle Eastern governments to loosen their grips 
on society just as in fact happened in the Soviet Union. Fiscal 
pressures were the key to opening up the political systems.
    The result has been since the late 1980s an appreciable 
liberalization of political life in many countries, including 
legalization of new political parties, holding parliamentary 
elections, providing greater opportunities to oppose the 
government in public and more robust media, a larger role for 
the private sector, and an expansion in the number and the 
nature of non-governmental institutions that form civil 
society.
    There has been great enthusiasm throughout the region for 
people to try to forge credible, effective, useful civil 
society institutions, non-governmental organizations, PVO's, 
private voluntary organizations. You've had tens of thousands 
of new, non-governmental organizations established in the Arab 
world in the last 15 years. The number went up from around 
30,000 to around 80,000 in the last 15 years. Societies for the 
care of handicapped children to teach people literacy, to help 
provide educational facilities, promote democracy, human 
rights, women's rights, children's rights, any kind of 
organization you can think of, there's been an explosion of 
these societies, showing you the enthusiasm and thirst for 
democracy in the region.
    We've also seen in the elections that have taken place and 
the liberalizations that have taken place since the late 1980s 
dozens and dozens of political parties, new press publications 
created, so there is a tremendous thirst in the region to 
participate in democratic institutions. And what's happened 
since the late 1980s has diffused some of the tensions and the 
frustrations and the pressures that had been building up in 
Arab society.
    But in no cases did this political liberalization lead to 
fully democratization. The small elites that ruled most of 
these countries since independence continued to dominate 
decisionmaking and continued to dominate the political, 
military, fiscal, and even the intellectual resources of the 
country.
    The forces that drive people in the Middle East to try to 
create better societies are the forces that I think are 
important for you to address if you want to connect with the 
people who are already working for democracy in that region. 
And I would say that the single most important driving force 
for political activism and change in the Middle East has been 
domestic indignity. It's not Israel, it's not the United 
States, it's not British colonialism, it's not historical 
anxiety, it's domestic indignities hoisted on the people by 
their own regimes and societies. People are angry about not 
having a sufficient voice in their countries, about corruption, 
about exploitation of power, about lack of equality, about 
mediocrity in public service, and this goes on for decade after 
decade, and people fight against this but they can't get very 
far.
    The second reason is the humiliations and the dangers that 
people have suffered in the Arab world particularly as a result 
of the Arab/Israeli conflict. This has huge impact throughout 
the region, so solving the Arab/Israeli conflict fairly will 
have a significant impact on domestic trends in the Arab 
countries, but by itself will not completely solve the problems 
of the region.
    And the third problem that people suffer from is the legacy 
of foreign intervention in the area. People still remember what 
the Europeans did, we still talk about it, it still impacts on 
the mediocrity of many of our institutions, and in some cases 
the incoherence of some of our states. So if you look around 
the Middle East, we have a series of rather incoherent states 
in some cases that have fallen apart from civil wars or 
occupations or whatever, and many people still remember the 
colonial role of the Europeans and people are asking whether 
we're witnessing a new colonial American experience now.
    The vast majority of people in the Arab world are stunned 
and angry that we in my generation are still addressing the 
same issues that my grandparents addressed 80 and 90 years ago: 
the rights of the citizen; the relationship of the individual 
citizen to the state; relationships between the individual and 
the society around him or her; the relationship between Arabism 
and Zionism, Israel and the Arab countries; the relationship 
between us and the Western great powers; the rights of 
individuals in society in relation to other people in society. 
These fundamental issues of citizenship and statehood and 
sovereignty have not been addressed in any coherent way in the 
last three generations and this angers people.
    And all of these issues and others have caused people to 
work hard to try to bring about a better order in the region 
and many of them have expressed this desire in the language of 
religion. It's not an accident that this is a majority Muslim 
region and people have turned to their religion to express 
their indignities when they found no other opportunities open 
to them in civil society. The parallel that I draw, and it's 
not exactly the same but it's very similar, is how the American 
African-American experience, when all routes for political 
change through these institutions of society in United States 
were closed to African-Americans by and large in the 1940s and 
1950s, they turned to the church.
    The civil rights movement was led by the church and the 
African-Americans and all Americans were lucky to have such 
enlightened leaderships leading the civil rights movement, and 
it was one of the finest moments in American modern history. 
And you had the church leading the anti-apartheid movement in 
South Africa and it's no accident that the people turned to the 
religious leaderships in their countries in the Middle East.
    So we have this very rich and vibrant landscape and dynamic 
landscape of people trying to improve societies in the Middle 
East but unable to do so, and now there is an opening to make 
change, an opening because of the economic stress in the region 
that has forced countries to liberalize their political grip 
and perhaps an opening because of external interventions. We'll 
have to see what the American intervention in Iraq actually 
does in terms of promoting democracy. I think the record is 
still open on this, but giving the U.S. Government the benefit 
of the doubt. If it wants to really promote democracy, I think 
it will find millions and millions of people anxious to work 
with it.
    The keys to success will be to achieve a legitimate 
democratic order in the Middle East, I think the key is going 
to have to be to understand these cultural differences that 
separate us, but that are anchored in the common values that we 
share. People in the United States value freedom above all 
other attributes, I would say. Freedom is not a high priority 
for most people in the Middle East. Human dignity, justice are 
the issues that people talk about, and you need to relate to 
them in those terms if you want them to work with you 
coherently for democratic progress.
    Americans organize their society on the basis of the rights 
of the individual. Middle Eastern societies are based on the 
rights of the individual is subsumed under the group, the 
family, the tribe, the religion, the ethnic group, whatever it 
may be. Individual rights in the Middle East are not as 
important as they are in the West.
    The United States is a secular society. Religion deeply 
permeates all aspects of life in the Middle East and this is 
something that you need to come to grips with. And the United 
States is predominantly an immigrant society with a very short 
collective history, while most countries in the Middle East are 
not immigrant societies, they're people who have lived there 
for hundreds or even thousands of years and they have strong 
historical memories.
    These four points I think are crucial to formulating any 
kind of effective democratic program in the Middle East, and I 
would urge that there be a serious effort to study these issues 
much more carefully to find those commonalities between the 
people of the United States and the people of the Middle East 
where we do agree. And I'm making these differences but also 
pointing out that there is a massive underlayer of agreement on 
the principles, the consent of the governed, the rule of law, 
equal justice for all, accountability of public officials.
    These are issues, values that are deeply ingrained in our 
religions and in our culture, and I would finish by saying 
again that the dynamic that we witnessed here in this committee 
is a dynamic that we witness all the time in the Middle East, 
but it's not done like this, it's not on television, it's not 
in the paper, it's not open to the public. It's done quietly, 
it's done in people's rooms, it's done in people's homes, 
offices, government officials. I've been in situations with 
kings and the people sitting down together and having a chat, 
people holding the leaderships accountable, but it's done in a 
different way.
    If you try to impose a Western American tradition of doing 
things in a democratic way on a culture that is completely 
different in the way it manifests its ideals, you are going to 
have the same failures that the British and the French did 80 
years ago. And I would urge you as somebody who is deeply 
rooted in both American and Arab culture and who loves them 
both and appreciates their values both to make a much more 
rigorous and strenuous effort than the executive branch of your 
government has done to understand these differences but also 
understand the commonalities, identify those forces in the 
Middle East who are working for exactly what you're working 
for, and to push that process forward with much more coherence 
than we have seen today.
    Thank you very much.
    [The prepared statement of Mr. Khouri follows:]

 Prepared Statement of Mr. Rami G. Khouri, Executive Editor, The Daily 
                    Star Newspaper, Beirut, Lebanon

    Mr. Chairman, Committee Members, Ladies and Gentlemen,
    Thank you for this opportunity to share some thoughts with you on 
an issue of immense and urgent importance to Americans and Middle 
Easterners alike--promoting democracy throughout the Middle East. I 
have spent all my adult life in the region working towards this goal, 
and am personally delighted that democratization in the Middle East 
should now be raised as a potential American foreign policy objective. 
The objective is noble, appropriate, and achievable. The demand among 
the people of our region is great. Yet men and women in the Middle East 
and the United States who seek to achieve this worthy goal face a 
landscape littered with obstacles that can be traced back to indigenous 
Arab and Middle Eastern causes but also to the conduct of the USA and 
other foreign powers. Most of these constraints are man-made, and they 
can be removed if we forge appropriate policies and work diligently and 
consistently. I would like to offer some observations and suggestions 
based on my analysis of sentiments throughout the Arab World, the 
region I know best, though some of these thoughts are also relevant to 
Turkey, Iran, Israel, and other non-Arab parts of the Middle East.
    This is a critical time in the Middle East, when its own citizens 
and many friends around the world are exploring why this region remains 
the least democratic part of the globe. If the United States in 
particular truly seeks to promote democracy in Iraq and the wider 
region, it would do well to start by correctly analyzing three critical 
factors: Why has democracy not spread throughout this region? What has 
been the United States' role in this matter in modern history? And what 
do the people of the region feel about democracy, and what are they 
doing to achieve it?
    There are tens of millions of people for you to work with on this 
goal throughout the Middle East, but they have mostly been silenced by 
their own governments, and ignored by the American government and 
others around the world. I would suggest the following main reasons why 
the Middle East remains a region largely devoid of democratic 
governments:

          1. The legacy of autocratic, sometimes authoritarian, rule in 
        our region, almost always with the explicit, sustained support 
        of foreign governments, including the US government. Arab 
        democrats have never had a chance, and they are understandably 
        skeptical to hear the USA suddenly promoting a policy of rapid 
        democratization in the Middle East. Washington's credibility on 
        this, like its track record, is very thin.

          2. The many years of the Cold War reinforced the static, non-
        democratic nature of the Middle Eastern political order, as the 
        two superpowers provided economic, political, and military 
        support for their clients in the area.

          3. The Arab-Israeli conflict provided a means for autocratic 
        rulers to avoid democratic transformations and instead to 
        promote security-minded regimes, by arguing that the regional 
        conflict made defense a greater priority than democracy.

          4. The post-WWI colonial legacy made it virtually impossible 
        for Arab public opinion to manifest itself for democratic 
        governance, given that colonial authorities usually transferred 
        political and military power in most countries to hand-picked 
        local elites, who quickly consolidated their grip on power or 
        were overthrown by military coups whose leaders consolidated 
        their power.

          5. State-building issues, security, and taking care of one's 
        own family usually were seen by most people and governments as 
        more urgent priorities than promoting democracy.

    The net result of these and other trends has been that security-
minded governments and states dominated most aspects of life in Middle 
Eastern countries, external powers usually helped to perpetuate this 
autocracy and lack of democracy, and civil society and the private 
sector were largely contained and controlled by the state. Middle 
Eastern democrats have struggled unsuccessfully against these odds for 
many decades, just as their counterparts had done in the former Soviet 
bloc. But some improvements have occurred since the mid-1980s, when 
fiscal pressures forces most Arab regimes to loosen their grip on 
society; this trend continued in the early 1990s, after the collapse of 
communism impacted on the region.
    The result has been an appreciable liberalization of political life 
in many countries, including legalization of new political parties, 
holding parliamentary elections, providing greater opportunities to 
oppose government positions, a more robust press, a larger role for the 
private sector, and expansion in the number and nature of non-
governmental organizations and other civil society actors. The 
enthusiasm with which ordinary people throughout the region embraced 
the opportunities provided by the recent political liberalization 
indicates the strong thirst for more democratic and participatory 
governance systems in the region. Tens of thousands of new non-
governmental organizations have been established in the region in the 
past two decades, along with hundreds of political parties and 
publications.
    This has defused some of the tensions, frustrations, and pressures 
that had been building up within Arab countries, but in no case did it 
move any society towards a truly democratic system. The Arab region 
since the late-1980s has experienced a measurable improvement in 
freedom of expression and association, but political liberalization has 
not continued on the path towards full democratization. The ruling 
elites that have dominated Middle Eastern political life for the past 
half century continue to do so, with only superficial changes to their 
control of political, security, intellectual, cultural, and economic 
assets.
    The tensions and concerns that drive the sentiments and actions of 
ordinary people throughout the Middle East have not changed very 
significantly in the past few decades. I would define these, in their 
order of importance, as:

          1. Domestic indignities, reflecting political, economic, 
        cultural and environmental pressures on the ordinary citizen, 
        who feels that his or her voice is not heard in a society where 
        power is unjustly exploited by a small, non-accountable elite.

          2. The humiliations and dangers suffered as a result of the 
        Arab-Israeli conflict, which are widely felt emotionally and 
        politically throughout the region.

          3. The legacy of foreign interventions in the area, whether 
        by Europeans a century ago or by the USA today.

    All three of these issues have caused tens of millions of people 
throughout the region to agitate for a better, more responsive and more 
equitable order. Ordinary men and women have had few if any 
opportunities to express themselves, let alone to work for better 
governance. Most people have expressed their wishes in the language of 
religion or culture, speaking of their right to justice and dignity, 
rather than in the language of democratic republicanism. Dissatisfied 
Arabs whose citizenship rights have been routinely degraded have most 
often found refuge and hope in their religion or in their collective 
tribal and family identities, which have provided the sense of identity 
and the security and services that the modern state has not been able 
to provide.
    The election results throughout the Middle East since the late 
1980s, along with public opinion polls and the media, indicate clearly 
a strong desire for change among the publics of the region. The 
landscape for change and democracy in the Middle East is deep, rich and 
fertile, but it has never been cultivated by indigenous authorities or 
foreign powers.
    Any effort to promote democracy in the Arab and wider Middle 
Eastern region must take these facts into consideration, acknowledge 
the mistakes of the past, understand the grievances and aspirations of 
the people of the region, and respond to indigenous concerns and hopes, 
rather than transplant foreign notions of what is right or what is 
needed. The US' policy in Iraq today unfortunately dampens indigenous 
Arab activism for democracy in the short run, given the strong anti-
American sentiments in much of the Middle East. Local activists who 
seek to promote democracy face the new obstacle of being seen by some 
of their peers as unwitting agents of the United States. This is a 
terrible and bitter irony, given that Middle Eastern democracy 
activists have long wished to work with like-minded partners from the 
US and the West as a whole.
    To achieve legitimate democratic orders in the Middle East, we must 
acknowledge several key realities and act accordingly, rather than 
forge policies that are driven either by extreme ideology or naive 
romanticism. The single most important point that we must acknowledge 
is that the people of the United States and the Middle East share very 
common values and goals on issues such as a just society and good 
governance--but they express them very differently. Four key 
differences should be kept in mind as we collectively seek to promote 
democracy in our region:

          1. Americans probably value freedom above all other 
        attributes, while most Arab societies stress the dignity of the 
        individual more than his or her liberty. Dignity is defined and 
        perceived as comprising the same range of values and rights 
        that define democracy in the US and the Western world--
        participation in political life and decision-making, a sense of 
        social and economic justice, initial equal opportunities for 
        all young people in their education and careers, and the rule 
        of law applied equally and fairly to all in society.

          2. Americans organize their society and governance primarily 
        on the basis of the rights of the individual, while Arabs 
        define themselves and their societies primarily through 
        collective identities, such as family, tribe, ethnic group, or 
        religion. Americans tend to stress society's obligation to 
        ensure the individual's rights to do as he or she pleases, 
        within the limits of the law; Arabs tend to focus more on the 
        obligation of the individual to fulfill his or her 
        responsibilities to the family and wider community.

          3. The USA is a secular society, while religion plays an 
        important public role in most Arab and Middle Eastern 
        societies.

          4. The United States is predominantly an immigrant society 
        with a short collective historical memory, while Middle Eastern 
        cultures are deeply defined by their historical memories and 
        past experiences.

    These four key differences between American and Arab culture have a 
major impact on how democracy could spread throughout our region. The 
term ``democracy'' itself needs to be defined carefully, given its 
largely Western tradition, though I believe we are all talking about 
the same broad concepts and values. We can speak of democracy, 
constitutionalism, republicanism, good governance, the rule of law, 
representative and accountable governance, participatory governance, or 
any other combination of words that reflect values we admire and seek 
to enjoy. One of the continuing mistakes of the past century--and the 
United States is now repeating the mistakes that Great Britain made in 
Iraq nearly a century ago--is that Western powers that enter the Middle 
East on the back of their military might tend to recreate Middle 
Eastern societies in their own Western image. Most of the parliaments, 
presidential systems, and even, in some cases, the very sovereign 
states that the British and French created in our region nearly a 
century ago have limped into this new century in poor shape, with 
limited credibility, relevance, or impact with their own people. One 
reason for this is that the people of the Middle East were rarely 
seriously consulted about the formation of their new countries after 
World War One. Another reason is that Western powers tried to copy 
their own institutions and mirror their own values in the Middle East, 
without sufficiently taking into account local realities such as those 
included in the four points I mentioned above. We may be witnessing 
this mistake once again in US policies in Iraq, whose good intentions 
are not always matched by effective implementation.
    Rather than trying to replicate Western institutions in the Middle 
East or graft American institutions into Iraq, it would be much more 
effective and culturally acceptable to identify those shared values 
that define Middle Eastern and Western cultures, and work together to 
give those values life and institutional meaning in new governance 
systems. I know from my own life experience in the United States and 
the Arab World that Arabs and Americans broadly see eye-to-eye on the 
core principles and values that concern us--such as the consent of the 
governed, majority rule and the protection of minority rights, 
accountability of those who hold public power, participation and 
consultation in the decision-making process, a sense of justice and 
equity for all, and pluralism in the social, religious and political 
order. We can all identify some quarters in the Middle East that do not 
share these views, but these are the exceptions that prove the rule.
    I would urge the USA and any other foreign party that seeks to 
promote democracy in the Middle East to focus on promoting these kinds 
of principles and working to ensure that the peoples of the region have 
the opportunity to manifest these values in political structures and 
norms that are culturally comfortable and credible for them. The sad 
fact is, never in my generation have I witnessed an American government 
that worked hard for the principle of the consent of the governed in 
Arab lands. If this is to change, and the USA now plans to spearhead a 
democratic age in the Middle East, it would do well to start by 
consulting more closely with the people of the region, and forming 
partnerships for goals that are defined primarily by the citizens of 
those societies you wish to democratize. In other words, the best way 
to promote democracy in the Middle East is to be democratic in the way 
you go about trying to do this: consult, and don't dictate; achieve 
consensus, and don't issue ultimatums.
    Perhaps the most common obstacle in the way of American hopes to 
promote democracy in the Middle East is the perception in the region of 
American double standards, on issues such as the Arab-Israeli conflict, 
implementation of UN resolutions, promoting democracy, and weapons non-
proliferation. This suggests that the fastest way for the US to be 
accepted as a credible purveyor of democracy in the Middle East is to 
be much more consistent in its practical policies in the region. Simply 
stated, the US should apply the same standards in its policies abroad 
as it does at home. This will require greater sensitivity to local 
Middle Eastern cultural and religious values, and more consistency in 
promoting democratic values among all the countries of the region, 
including the ones that the US has long viewed as strategic allies that 
it has exempted from promoting democracy.

    The Chairman. Thank you very much, Mr. Khouri.
    Dr. Marr.

  STATEMENT OF DR. PHEBE MARR, FORMER SENIOR FELLOW, NATIONAL 
   DEFENSE UNIVERSITY; AUTHOR AND CONSULTANT, WASHINGTON, DC

    Dr. Marr. Mr. Chairman and Senators, I'd like to thank you 
very much for inviting me to testify once again before you, and 
it is indeed a privilege. I want to expand in my testimony a 
little bit beyond the constitutional system and address some of 
the problems I see the Iraqis facing today, but I would also 
like to touch on the constitutional process as well.
    It seems to me that even before the occupation of Iraq 
there was considerable debate in policy circles here on what 
regime change in Iraq would mean. Without oversimplifying, some 
envisioned a modest change, removal of the head, Saddam, and 
some of his support system, but leaving much of the apparatus 
intact. In retrospect, that would have made a smoother 
transition if it could have been accomplished. It probably 
would have been less costly, but the difficulty with it, of 
course, is that you wouldn't have gotten much change, and we 
all worried about the emergence a new authoritarian leader 
later on.
    The second choice, the one that we've ultimately followed, 
was to opt for more radical change, a rather thorough 
dismantling of the system, the better to create something new 
in its place. This obviously has the virtue of clearing the 
field for new construction, but it does come with a high price 
tag. This radical change has created a political, military, and 
psychological vacuum, that now has to be filled by us or by 
others that we can hastily assemble from abroad or from inside 
Iraq.
    I would like to focus on a couple of unintended 
consequences that have resulted from this. I see two of these 
as the most important, and would like to focus on them today. 
One is the destruction of the central government in a country 
that was previously overwhelmingly dependent on it. As a 
counterbalance, and this is a very welcome one, there has been 
a very significant decentralization of administration in Iraq; 
the establishment of municipal councils, provincial-level 
appointments, and so on.
    But this cannot substitute for the role of a central 
government, and if there is too much decentralization left 
unchecked, we could get a lot more unintended consequences we 
don't want, such as renewed factionalism, the development of 
party militias, which we see, and increased control by local 
potentates. I believe that a balance has to be re-established 
and soon for several reasons. I've gone into in more detail on 
this in the paper than I will here.
    First is demographics in Iraq. I don't think this is widely 
appreciated, but because of internal migration in Iraq over the 
past couple of decades, there has been a considerable shift in 
population from the northern and southern provinces into the 
central provinces and particularly Baghdad. One should always 
distrust statistics in Iraq, but the trends I think are clear.
    By my calculation today, about half of Iraq's population 
lives in its five central provinces, and something like a third 
live in Baghdad, the capital. Only about 13 percent live in the 
three northern Kurdish provinces, and in all those southern 
provinces we lump together as Shi'ah, only about 32 percent 
live there. The north and the south up to this point have been 
relatively quiet, but I would point out that it's the center 
with the bulk of Iraq's population that is giving us the most 
trouble, including a persistent guerrilla insurgency.
    A second point, and you are probably familiar with this: 
Under Saddam, a large percentage of the population, especially 
its educated middle class, worked for the government directly 
or indirectly. It was a classic socialist command economy. They 
worked in the military, the police, security, education, the 
media, even large-scale industry. There are a lot of 
statistics, but according to one, perhaps a quarter of the 
population or more was supported by the central government 
including their families. I would point out here that most of 
this group is now out of work while the government doesn't 
function very well without them.
    Third, let me mention in passing, it's not surprising to 
find that this situation reinforced a culture of dependency on 
the government in Iraq and starved individual initiative and 
incentive. Mr. Khouri has talked about cultural differences and 
this is one I think we have to pay attention to. The United 
States is built on initiative. We expect people to rise up and 
seize the initiative. Iraq, because of the horrendous 
experience it's had in the last four decades, expects the 
government to perform services, give them orders, and to follow 
the government's lead. We have to deal with that situation.
    The U.S. occupation up to this point, it seems to me, has 
entirely reversed this situation. First, it has empowered local 
communities for the first time in Iraq's modern history. This 
is obviously very good. As I've indicated, it's worked well in 
the north, which has been governing itself for over a decade, 
and in the south, where the population is eager to exercise 
self-government. It has not worked well in the center.
    Second, as I've indicated, the United States has demolished 
much of the central government and its pillars, thereby 
weakening the center. Chief among these, of course, was the 
Armed Forces. While it's true the army collapsed, obviously 
there was no attempt made to reconstitute this force at any 
level. On the contrary, the CPA and others made clear that the 
old army would not be reassembled. Instead, a new one would be 
built from the ground up.
    Third, Iraq's notorious security services were disbanded. 
Obviously, no one is weeping over that or suggesting that they 
be revived. Nevertheless, the absence of these forces, as we 
saw during the looting and we see today, has left a huge 
security void that the coalition has not been able to fill.
    Fourth, the Ba'ath party was outlawed and members in the 
top three levels of the party were banned from public 
employment. That may involve 25,000, 30,000 members who had 
manned key positions in the public bureaucracy. While most 
members at the lower level, many of them middle class, were in 
the party for career reasons, for opportunism, without 
commitment, this group subsequently felt uncertain about their 
future. In any event, the bureaucracy at lower levels has not 
come back to work to any considerable degree to take charge of 
the administration as anticipated. Once again, the gap has been 
difficult to fill.
    So the question we have to ask, I think, about this 
educated middle class, the group that we need to run the 
bureaucracy, to fill the security gap, to propel its education 
system in new directions is this: Is this large and important 
class of Iraqis, what I consider to be the moderate, silent 
majority, going to cooperate with the United States in building 
a better foundation, or is it going to become alienated, 
passively resist cooperation, or worse yet, turn against us as 
the militant minority is urging?
    I would remind everyone that there is a very strong strand 
of nationalism and anti-colonialism in Iraq, not without some 
justification, stretching right back to the British mandate. 
This often creates a lot of peer pressure to avoid cooperation 
with the United States. But in my view, and a recent poll by 
John Zogby reinforces this, most of this middle class knows it 
needs the help and support of the U.S. and others and it wants 
this support until it has a government that can stand on its 
feet and meet the challenge of extremists. We must address this 
problem.
    The second radical change that's taking place, in my view, 
is in the distribution of power. This gets us to a problem that 
I think is critical. We've talked about it before. The second 
consequence has been a radical distribution, radical change in 
the distribution of power, and again, there's much that's 
beneficial about that. The new Governing Council and the 
ministers are now representative of the ethnic and sectarian 
distribution of the population. They also represent a wide 
diversity of political parties and they have brought into power 
a substantial group of exiled Iraqis, whom I see as a benefit. 
They bring fresh ideas and a spirit of initiative that may not 
be there right away in Iraq. This is all a very new phenomenon 
in Iraq.
    I think it is generally known, that most of the governments 
in Iraq, and none worse than Saddam's last government, have 
been dominated by the Arab Sunni community, and in his case a 
very narrow spectrum of this community. They come from the 
smaller towns and cities of the Sunni triangle. This completely 
underrepresented the Shi'i, who constitute 60 percent of the 
population, and the Kurds as well.
    The new Governing Council has reversed this. Of the 25 
members, 13, or about 52 percent, a slight majority, are 
Shi'ah, 5 each, about 20 percent, are Arab Sunnis, and Kurds. 
There's one Christian, one Turkman, and three women. At least 
half, perhaps more, are exiles, not including the Kurdish 
parties. While the makeup of this council is representative, it 
has also caused a little trouble, mainly from those who were 
left out. First the supporters and beneficiaries of Saddam's 
regime, the Sunni triangle, are the most disaffected and this 
is the source of our problem.
    Let us leave them aside because they are probably 
irredeemable, but the Baghdad middle class, many of whom were 
nominal party members, are also unhappy and I think we have to 
turn our attention to these as well.
    Second, the heavy emphasis on the religious and ethnic 
background in the Governing Council also points to another 
change from past regimes--that is an open emphasis on ethnic 
and sectarian politics. This has always been a subtext in Iraq. 
One can't deny its presence but it's more pronounced today than 
it has been at any time that I can remember in Iraqi history. 
This is worrisome to me. These appointments point to cleavages 
and tensions in the society that we have to be aware of and 
unless these are reconciled and we make efforts to reconcile 
them and we get people to cooperate across ethnic and sectarian 
lines, it could spell trouble ahead.
    The Arab Sunni community is not the only one to watch. Let 
me just mention the Shi'ah and the Kurds. The Shi'ah as a whole 
have accepted the new order because they understand that they 
have a chance to be a political majority for the first time in 
Iraq's modern history. However, the Shi'ah community is hardly 
homogenous, and even the minority of the Shi'ah, who want to 
see a more religious state, are divided among themselves on 
what role religion should play.
    Much of the Shi'ah community is uncomfortable with the U.S. 
occupation and wants an earlier rather than a later departure. 
The Shi'ah, however, risk a political split over this issue, 
particularly from militants like Muqtada-l-Sadr, the radical 
young cleric who has mobilized a lot of people in the poor 
district of Baghdad, Sadr City. A further decline in the 
security situation, more killing of Shi'ah clerics, could split 
the community, erode support for the Governing Council, and 
exacerbate community tensions. These eventualities should be 
avoided at all costs.
    The Kurds also represent another future fault line in the 
system, and I take on board to a considerable extent what Dr. 
Feldman has said. Though the north has been very quiet and the 
Kurds are very supportive of the coalition, one reason for this 
is that the Kurdish parties have made substantial gains in 
achieving their future goals. They are obviously very anxious 
to preserve these in the new constitution, and I agree that 
they're likely to drive a very hard bargain for self-government 
in the north.
    As the constitutional process proceeds, I think there will 
be two issues that have to be resolved. These will require very 
difficult bargaining among the Iraqis; they are not going to be 
technical constitutional questions, although that will be 
involved. These are political questions. I have actually 
identified the same issues that Dr. Feldman did, although my 
take on them may be slightly different. These issues 
incidentally are very real, and in my view we can opine on 
them, but the Iraqis are the ones that have to resolve them. If 
the Iraqis in any way can resolve them, that should be 
acceptable to us.
    The first is the role of the Shi'ah in the state. This is a 
key issue for several important Shi'ah parties and for 
secularists as well. There is little doubt that these Shi'ah 
politicans and not only the Shi'ah but the Sunnis as well will 
want a greater role for religion. The folks who do want a 
greater role for religion are going to face a number of 
secularists in Iraq as well as moderately religious people who 
want a limited role. In my view, we're going to see more 
religion in Iraq than we have in the past, but the question is 
how to draw the boundaries, how much religion, what kind of 
religion, and so on. This is going to be one of the key 
questions in the constitutional discussion.
    The second issue is the role of the Kurds in the state and 
how much self-government for the Kurds under the constitution. 
There is little doubt that the Kurds want federalism. This 
issue boils down into a discussion between those who are 
talking about ethnic federalism and those who are talking about 
administrative federalism, based on 18 provinces. 
Administrative federalism would not be a bad idea, because 
those provinces which are distinctly Kurdish or Shi'ah or Arab 
Sunni would of course have Kurdish, Shi'ah, and Arab Sunni 
governments, and those which are mixed, like Kirkuk, Mosul, 
Baghdad, even Basra, Diyala, and so on, would have mixed 
governments.
    A word of caution here about federalism that divides Iraq 
into two or three big areas. Disentangling these areas is going 
to be no small task if that's what people have in mind with 
this federalism. It may be easy in Dahuk. It may be easy or not 
too easy even in Najaf, but when you get to these mixed areas 
where the bulk of the population in Iraq lives, it's going to 
be extremely difficult.
    I agree that the Kurdish parties, who are in control of the 
north of Iraq, are pretty determined to have federalism on an 
ethnic basis. As I've heard it defined wherever a province has 
50 percent Kurdish speakers it is going to be a Kurdish 
province. This really has to be looked at carefully, although 
it is an issue for the Iraqis to decide, because if there is an 
ethnically defined Kurdistan, does that not open the door to 
self-governing units in other area, such as the Shi'ah south or 
the Sunni triangle? What happens to Baghdad and other mixed 
areas in the center? And what happens to the cohesion of Iraq 
as a country?
    Constitutional deliberations, however they come about, and 
the drawing up of an electoral law on which representation will 
be based, will open all of these issues. I believe they're 
going to be difficult to resolve and that the Iraqis need a 
reasonable time period in a relatively secure environment to 
resolve them. They do need some deadlines, however, to work 
toward the process so that they'll be able to move to a 
conclusion. I recognize the difficulties of holding an 
election, which would produce a huge group of people to sit 
down and look at the constitution. Actually dozens of Iraqi 
exiles, including my colleague, Dr. al-Khafaji, have looked at 
constitutions and drawn up models. I would be a little uneasy 
myself to have a constitution promulgated in Iraq without some 
kind of an electoral body to ratify it, because that would 
raise the whole issue of legitimacy. The constitution, after 
all, is going to determine much of the future of Iraq.
    I'd like to conclude with a few suggestions on what the 
United States needs to do in a broad sense, where we need to go 
from here to address a couple of these issues. The first I'm 
sure you've heard over and over. We must reduce and neutralize 
the insurgency. Everything else depends on getting a degree of 
stability and quiet. That of course is going to be easier said 
than done.
    I would certainly second the suggestions that have been 
made here to turn that task over as rapidly as possible to 
Iraqis. Iraqis know the environment, they know the people, 
they're much better equipped to deal with security than we are. 
And incidentally, there have been a number of suggestions for 
security, some of which are short-term but not, I think, too 
good for the long-term, such as using local militias placed 
under the authority of the central government. It is better to 
rapidly develop new forces for the Iraqis. I would be very 
careful about decentralizing security and putting it in the 
hands of these militias, because we need to strengthen the 
central government while we're making it democratic.
    The second point that I would make here is that it is time 
to strengthen the central government and the center. This may 
be somewhat controversial, but the gap left by the collapse of 
the central government and the decline and weakening of Baghdad 
and the center as a whole is part of this problem of restoring 
law and order. While decentralization is necessary, I think the 
process needs a little re-balancing at this point, particularly 
in a country that's used to taking orders from the central 
government.
    A restored and healthy center and a functioning central 
government will help prevent unraveling in the provinces. 
Staffing shortages need to be filled. There should be better 
linkages between the provinces and the central government, not 
simply the extension of the central government into the 
provinces. The Baghdadis need to get out in the provinces and 
understand their demands. We should try to get some of these 
very dynamic, very interesting municipal and provincial 
councils that have developed in better contact with the central 
government as well.
    The last point I would make here, and it is the main one 
that I want to make, is that in looking at how to spend this 
money, in looking at programs, looking at where we want to go, 
we need to aim at strengthening the middle class. The United 
States should use its construction money to strengthen this 
class. It can do so in several ways, developing an independent 
business class, which is free of government control, and 
strengthening an educated professional class, both of which are 
the backbone of any democratic state.
    In Iraq, this class has generally cut across ethnic and 
sectarian lines. When you strengthen the middle class, you're 
reducing these divisive, ethnic, and sectarian differences in 
general--the middle class has been the glue which has held the 
country together--as well as encouraging a common and more 
progressive Iraqi vision. That class and the progressive vision 
are still present in Iraq, but as we know, the middle class has 
been weakened through Saddam's oppression and by sanctions.
    I think we should be spurring economic activity in small- 
and medium-sized business, which will help employment and help 
develop an independent economic sector. And I would add my 
voice to Dr. Khafaji's in saying we've got to be very careful 
to keep a level playing field in the economy, to make sure it's 
Iraqis we're empowering and hiring, not foreign companies, and 
preventing the development of a small economic mafia, the sort 
of thing that developed in the Soviet Union and which Saddam 
developed prior to his overthrow.
    We should also open the country to outside influences. 
There are dozens of good ideas on how to do this in education, 
through think tanks, through professional exchanges which will 
help the educated class, which is the backbone of government 
and civic society. The stronger this class becomes, the less 
will be heard of these ethnic and sectarian differences. And 
accompanying this transformation must be an attractive, 
practical vision of the future for young Iraqis to develop new 
careers and new opportunities. If this takes place and Iraq 
becomes a dynamic economic and social place, some of these 
divisive tendencies will dissipate.
    This vision and these opportunities, I think, must come 
soon, especially in Baghdad and the center, or ethnic and 
sectarian tensions, rising opposition to the occupation, and a 
deepening and spreading insurgency will end any hope for a 
stable, much less a democratic, Iraq. Thank you.
    [The prepared statement of Dr. Marr follows:]

 Prepared Statement of Dr. Phebe Marr, Former Senior Fellow, National 
       Defense University; Author and Consultant, Washington, DC

    Even before the occupation of Iraq there was considerable debate in 
policy circles on what ``regime change'' in Iraq should mean. Some 
advocated modest change--removing the head of the regime--the Saddam 
family and its support system--but leaving the rest more or less intact 
to run the government. This would have meant a smoother transition at 
less cost to the US. But it would have left much of the Ba'th and 
military apparatus in tact and, in the end, brought only minimal change 
to Iraq.
    A second choice, the one ultimately followed, opted for more 
radical change--a thorough dismantling of the system, the better to 
create something new in its place. This had the virtue of clearing the 
field for new construction, but, as is now apparent, it has come with a 
high price tag. Radical change has created a political, military and 
psychological vacuum that has to be filled--by us--or by others we can 
hastily assemble from abroad or inside Iraq. This policy has had 
several unintended consequences. I would like to address two of the 
most important of these.
    1. Destruction of the Central Government: The first is the 
destruction of the central government in a country overwhelmingly 
dependent on it. As a counterbalance--and a welcome one--there has been 
significant decentralization of administration, with the development of 
municipal councils and governance at provincial levels. This is a 
positive development, but it cannot substitute for the role of a 
central government in a relatively advanced country like Iraq, and too 
much decentralization, if left unchecked, can be counterproductive. It 
can lead to renewed factionalism; the development of party militias and 
increased control by local potentates. A balance has to be 
reestablished--and soon. There are several reasons for this, which can 
be demonstrated by a few statistics.
    First, demographics in Iraq show that over the last several decades 
much of the population has shifted to the central region. The Kurdish 
population in the north has undergone drastic uprooting and 
resettlement as well as gassing. The shi'ah population in the south has 
been oppressed, neglected and pushed out of the country. This has left 
the ``center'' top heavy. (See Annex 1) By 2003 half of Iraq's 
population lived in its five central provinces. (Baghdad, Ninewah, 
Anber, Salah-al-Din and Diyala). Almost a third of these live in 
Baghdad. Only 13 percent of Iraq's population lives in the three 
northern provinces of Dahuk, Irbil and Sulaymaniyyah; and only 32 
percent in the nine southern (mainly shi'ah) provinces, including 
Basra. In part because of decentralization, the northern and southern 
provinces have, for the most part been quiet. With the exception of 
violence against shi'ah clerics in Najaf--emanating from outside--there 
has been minimal violence in these two sections of the country. By 
contrast, it is the ``center'', with the bulk of Iraq's population, 
that is giving us trouble, including a persistence guerrilla 
insurgency. While Baghdad is not the center of the insurgency, it is 
not yet under control and its governance, is a problem.
    Second, under Saddam, a large percentage of the population--
especially its educated middle class--worked for the central government 
directly or indirectly. They were employed in the military, the police 
and the security services; they worked in the civil service, 
educational institutions and the media. Much of the industrial sector 
was also under government control. (See Annex 2) According to one set 
of statistics, almost 17 percent of the entire work force, some 826,000 
was working for the government in 1990, exclusive of the military. If 
the military is added, (over 400,000) over a quarter of the population 
was supported by the central government. This group is now out of work 
while the government cannot function without them.
    Third, not surprisingly this situation reinforced a culture of 
dependency on government and starved individual incentive and 
initiative. The political culture, as well as the reality on the 
ground, fostered the notion that the government was the provider of 
benefits, services and ``perks''. The role of the population, 
especially those employed by government, was to ``obey the law'' and 
follow the government's lead. These principles are clearly spelled out 
in fifth and sixth grade ``civics'' textbooks, written simply so 
children can understand them. One or two quotes may illustrate the 
point:
    ``The revolution provides services to citizens-housing . . . land . 
. . buildings and modern villages, . . . and services such as water and 
electricity. . . . We provide books and magazines . . . television 
broadcasting and cultural programs . . . and also guidance to the 
public . . . .
    ``All loyal citizens should] protect the revolution and maintain 
stability, prevent crimes, uphold the sovereignty of the law . . . and 
cooperate with the internal security forces and help them perform their 
duties . . .'' (N.Y. Times, April 20, 2003)
    The US occupation has entirely reversed this situation. First, it 
has empowered local communities for the first time in Iraq's history. 
Municipalities, provincial capitals and local regions are now under 
local authority, often through a rough and ready election process. This 
has worked well in the north, which has been governing itself for over 
a decade, and in the south, eager to exercise some self government. It 
has not worked well in the center.
    Second, the US has demolished much of the central government and 
its pillars, thereby weakening the center. Chief among these actions 
was abolishing the Iraqi anned forces. While it is true that the 
occupying powers found an army already dispersed and disbanded, it made 
no attempt to reconstitute this force at any level. On the contrary, it 
made it clear that the ``old'' army would not be reassembled. Instead, 
a new one would be built from the ground up.
    Third, Iraq's notorious security services were disbanded, including 
special forces and various units of the Republican Guard. These 
presumably included the police. While no one would suggest reviving or 
maintaining Saddam's intelligence and security forces, the absence of 
these forces, as we saw during the looting, left a huge security void 
the coalition was not able to fill.
    Fourth, the Ba'th Party was outlawed and all members in the top 
three levels of the party were banned from public employment. This may 
have involved 25,000 to 30,000 members who had manned the key positions 
in the massive public bureaucracy. While most party members at lower 
levels, including much of the educated middle class--possibly over a 
million--were in the party for career reasons and not for commitment, 
many may have felt uncertain about their future. They may also have 
been intimidated by the Ba'thists who were fired but threatened to 
return. In any event, the bureaucracy at lower levels did not come back 
to work or take charge of a new administration as apparently 
anticipated. Once again, the gap has been difficult to fill.
    Much of Iraq's educated middle class, the group that we need to run 
the bureaucracy, to fill the security gap and to direct its education 
system, is located in these central provinces, especially Baghdad. Much 
of this population is now unemployed and sees little prospects of 
future employment in its previous profession. Its expectations of a 
better future (like our own expectations for a smooth transition, far 
too high to be realistic) now are badly damaged. Will this large and 
important class of Iraqis--its ``moderate, silent majority'' cooperate 
with the US in building a better foundation? Or will it become 
alienated, passively resist cooperation or worse, turn against us as 
the militant minority is urging? There is a strong strand of 
nationalism and a long tradition of anti-colonialism in Iraq stretching 
back to the British mandate. This often creates strong peer pressure to 
demand immediate self government. Such demands, from militants, will be 
increasingly difficult to resist. But most of this middle class in the 
center knows that it needs the help and support of the US--and wants 
it--until it has a government that can stand on its feet and meet the 
challenge of the extremists. It is the center--not the north nor the 
south--yet--which is giving us trouble. We must address this problem
    2. A Radical Change in the Distribution of Power. The second 
consequence of the occupation has been a radical change in the 
distribution of power. Again, there is much that is beneficial about 
this change. The new Governing Council--and the ministers--are now 
representative of the ethnic and sectarian distribution of the 
population. They represent a wide diversity of political parties 
ranging from religious, to nationalist to leftist. And they have 
brought to power a number of exiled Iraqis with political experience 
gained outside Iraq, a new phenomenon in Iraq. The most important 
shift, however, is in the ethnic and sectarian balance on the Council. 
By contrast, a snap shot of the Ba'athist government in 1998 showed 
that at upper levels (RCC and Regional Command of the Party) at least 
61 percent were Arab sunnis; only 28 percent Arab shi'ah and 6 percent 
Kurds or Turkman. (See Annex 3). This imbalance has characterized most 
periods in Iraq's history which has substantially underrepresented the 
shi'ah, who constitute about 60 percent of the population, and the 
Kurds who constitute about 17 percent. Arab sunnis are a minority of 
only 15 to 20 percent, yet they have always had twice their number in 
political posts and a hugely disproportionate number at the top.
    The new Governing Council has reversed this distribution of power. 
Of the 25 members, 13 or 52 percent--a slight majority--are shi'ah; and 
five each--about 20 percent are Arab sunnis and Kurds. There is one 
Christian, one Turkman and three women. At least half are exiles, not 
including the Kurdish parties which had been functioning in the north; 
only a minority had been living in Iraq under Saddam's rule, giving 
them a smaller voice. While this change will bring fresh air from 
outside and experience in dealing with more open political systems, it 
may cause some resentment from insiders.
    While the make-up of the council is representative, it has also 
caused some trouble--mainly from those left out or whose fortunes have 
been reversed. Some of this is obvious. The supporters and 
beneficiaries of Saddam's regime in the sunni triangle are the most 
disaffected and this area is the source of much of the continuing 
insurgency. The regular army which probably expected to play some role 
in the new regime is also unemployed and reportedly disaffected. The 
Baghdad middle class, many of whom were nominal party members and are 
used to entitlements are also unhappy with their reversal of fortune as 
well. While some of these individuals are irredeemable, most need to be 
given a stake in the new regime and not left out in the cold.
    The heavy emphasis on religious and ethnic background in the 
Governing Council also points to another change from past regimes--the 
open emphasis on ethnic and sectarian politics. While always a subtext, 
these affiliations are now front and center, pointing to cleavages in 
society which are more pronounced today than at any previous time. 
Unless they are reconciled--and reduced in importance--they could spell 
trouble ahead. In any ensuing struggle for power--and there 
unquestionably will be one--these factors will now be more important. 
The Arab sunni community is not the only one to watch.
    The shi'ah, as a whole, have accepted the new order because they 
understand that they have a chance to become a political majority for 
the first time in Iraq's modern history. In the past, rejectionist 
policies from the shi'ah have resulted in a permanent reduction in 
their political influence, an outcome most shi'ah leaders do not want 
to risk again. But the shi'ah community is hardly homogeneous; even the 
minority of shi'ah who want to see a more religious state are divided 
among moderates, conservatives and radicals. Much of the shi'ah 
community is uncomfortable with occupation and wants an earlier, rather 
than a later, end to it. The shi'ah risk a political split over this 
issue, particularly from militants like Muqtada-l-Sadr, a radical young 
shi'ah cleric who has mobilize thousands of poor, unemployed followers 
from 11Sadr City'' in Baghdad. The killing of shi'ah clerics (Abd al-
Majid al-Khu'i; Muhammad Baqir al-Hakim) has increased tensions within 
the community and turned the attention of some to the ``sunni'' 
opposition. A further decline in the security situation--and more 
killing of shi'ah luminaries--could split the community, erode support 
for the Governing Council and exacerbate communal tensions. These 
eventualities must be avoided at all cost.
    The Kurds also represent another future fault line in the system. 
Though the north has been very quiet and the Kurds are supportive of 
the coalition, one reason is that the Kurdish parties have made 
substantial gains in achieving their future goals. They have the 
dominant voice in Kirku's municipal council, and they have also 
expanded their influence--though it is not a controlling one--in Mosul. 
They, of course, are anxious to preserve their gains in the new 
constitution and can be expected to drive a hard bargain on self-
government in the north.
    As the constitutional process proceeds, there are likely to be two 
key issues that have to be resolved, and will require difficult 
bargaining among Iraqis. The issues are real, and only Iraqis can 
resolve them. The first is the role of the shi'ah in the state. Even if 
shi'ah representatives maintain a majority of seats on any governing 
body, the role of religion in state and society remains to be 
determined. This is a key issue for several important shi'ah parties--
especially SCIRI and the Da'wah. Those shi'ah politicians who want a 
greater role for religion will have to face many shi'ah secularists; 
who do not; even more significant, they will have to face a large sunni 
community, Kurd and Arab, that views religious precepts differently.
    The second issue is the role of the Kurds in the state and how much 
self-government Kurds will have under the constitution. While Kurds 
themselves want ``federalism'', they define this as an ethnic Kurdish 
area--Kurdistan--in the north, other Iraqis prefer a federalism defined 
on administrative terms, e.g. based on provinces. If the former is 
adopted, where and how will the boundaries of ``Kurdistan'' be 
determined, particularly in mixed districts like Kirkuk? And if there 
is an ethnically defined Kurdistan, does that open the door to self-
governing units in other areas, such as the shi'ah south or the ``sunni 
triangle''? What happens to Baghdad and the center? What happens to the 
cohesion of Iraq as a country?
    Constitutional deliberations, however they come about, and the 
drawing up of an electoral law on which representation will be based, 
will open these issues. I believe that they will be difficult to 
resolve and that the Iraqis need a reasonable time period, in a 
relatively secure environment, to resolve them. They also need some 
deadlines, however, to work toward without which the process will not 
move to a conclusion. Since various committees of Iraqi exiles have 
already examined these issues, six months ought to be ample time to 
come up with a draft. If the constitution is to be discussed, modified 
and ratified by an elected assembly--and to be legitimate it should 
be--that could take some time. (The British ran into difficulty when 
they went through this process in the 1920s and it took two years). 
Once this task is accomplished, a new election and the establishment of 
an assembly--and a government--should not take too much longer. About 
eighteen months seems a reasonable time frame to me to accomplish these 
processes. But any new government will need support, especially in the 
security area, for a longer period of time, while Iraq's new army and 
police take shape. Any foreign role after the new Iraqi government is 
set up, however, should be low profile and subsidiary, and would be 
helped by the umbrella of international support.

                      WHAT DOES THE US NEED TO DO?

    What does the US need to do, both to address the consequences of 
the changes that have taken place in Iraq since the fall of the regime, 
and to facilitate a sound and effective constitutional process?
    (1) Reduce and Neutralize the Insurgency. First, as all have noted, 
it needs to reduce and neutralize the insurgency, easier said than 
done. It seems likely, even under optimal conditions, that some level 
of armed opposition will continue for some time, and if other problems 
are not addressed (jobs, crime, electricity) it could grow and spread. 
Dealing with the insurgency should be turned over to Iraqis as soon as 
a capability can be developed, with due supervision exercised to make 
certain vengeance is not enacted and old scores settled. The units of 
the army that were disbanded, including some of its officer corps, can 
be hired back, with proper vetting. They should be put under civilian 
control. Local tribal leaders can also be used, judiciously, not only 
to provide intelligence but to keep order in their regions in return 
for benefits. Iraqis are far more likely to know how to identify 
insurgents, to vet reliable Iraqis, and to deal with their own region 
than are Americans who do not know Iraq or speak the language. Even the 
idea of using local militias, under central government supervision 
could be tried. However, these should be regarded as short term 
solutions, to deal with a problem that is seriously threatening Iraq's 
reconstruction and its conslitutional future. They should not be 
allowed to derail the development of a national army, a national 
intelligence service and a police force, all under civilian control. 
Care must be taken that these solution do not empower tribal leaders 
once again; legitimize party and private militias; empower the 
``outsiders'' in the Governing Council at the expense of the insiders 
and, in short, leave the new central government weak and ineffective.
    (2) Strengthen the Central Government and the ``Center''. The gap 
left by the collapse of the central government and the decline and 
weakening of Baghdad and the center as a whole is part of the problem 
of restoring law and order. While decentralization is necessary, the 
process needs rebalancing, particularly in a country used to ``taking 
orders'' from a central government. A restored, and healthy center, 
will help prevent unraveling in the provinces. Staffing shortages need 
to be filled. The new government needs to rehire Iraqis, including the 
military and the bureaucracy faster, and to streamline the vetting 
process. (This will also help put the population back to work). If some 
unregenerated Ba'thists slip through the net, they can be weeded out in 
the course of time and replaced by a new generation.
    Better and closer links need to be established between the new 
provincial administrations, and the central government, which should, 
once again, begin to knit the country together by providing services. 
However, these links should not simply function from the top down, but 
the bottom up. While central government representatives need to get out 
of Baghdad to the provinces, the reverse is also true. Mechanisms must 
be found to bring the new provincial administrators into contact with 
the central government, making certain the central government 
understands their priorities.
    (3) Strengthen the Middle Class. The US should use its 
reconstruction money to strengthen the middle class--both an 
independent business class free of government control and an educated 
professional class--both of which are the backbone of any democratic 
state. In Iraq, this class generally cuts across all ethnic and 
sectarian boundaries and has, in the past, been the glue which has held 
Iraq together and encouraged a common and more progressive Iraqi 
vision. That class and that vision are still present in Iraq, but the 
middle class has been weakened through Saddam's oppression and 
sanctions. Spurring economic activity and small and medium business 
will help employment and develop an independent economic sector. We 
should keep a level playing field while we privatize and prevent the 
emergence of a new economic mafia. Opening the country to outside 
influences--in education, through think tanks; through professional 
exchanges--will help the educated class which is the backbone of 
government and civic society. The stronger this class becomes, the less 
will be heard of ethnic and sectarian differences. Accompanying the 
transformation must be an attractive, practical vision of the future 
for young Iraqis--in new careers and new opportunities.
    This vision and these opportunities must come soon--especially in 
Baghdad and the center--or ethnic and sectarian tensions; rising 
opposition to occupation; and a deepening and spreading insurgency will 
end any hope for a stable, much less a democratic Iraq.

                                ANNEX 1

         Distribution of Iraq's Population by Region--1977-2002


                            (In Percentages)
------------------------------------------------------------------------
              Governorate                  1977        1987       2002
------------------------------------------------------------------------
Central Governorates:

Total                                   47.5        48.8       50.8
  Baghdad                               26.5        23.5       32.0
  Ninawa, Salah al-Din, Anbar, Diyala   21.0        24.4       18.8

Southern Governorates:

Total                                   35.8        36.0       31.8
  Basra                                  8.4         5.3        8.1
  Babil, Wasit, Karbala, Najaf,         27.4        30.7       23.7
   Qadisiyya, Maysan, Muthanna, Dhi-
   Qar

Northern Governorates:

Total                                   16.5        16.0       17.4
  Ta`mim                                 4.1         3.7        3.9
  Dahuk, Arbil, Sulaimaniyya            12.4        12.3       13.5

------------------------------------------------------------------------
Sources: Republic of Iraq, Ministry of Planning, AAS 1978, p. 26; AAS
  1992, p. 43. London Economist, Economic Intelligence Unit, Country
  Profile, Iraq, 2002-2003. (London) p. 18.

Taken from Phebe Marr, The Modern Histroy of Iraq (2nd edition)
  (Boulder, Colo.; Westview, 2003), p. 309.


                                ANNEX 2

                     Civilian Government Employment


                                                (Selected Years)
----------------------------------------------------------------------------------------------------------------
                                                        1952      1968      1972      1977      1987      1990
----------------------------------------------------------------------------------------------------------------
Work Force (1000s)                                       n.a.      2324      2776      3010      4500      4900
Gov't Employees (1000s)                                    85       277       386       666       828       826
Percent of Work Force                                    n.a.       12%       14%       21%     18.4%     16.8%

----------------------------------------------------------------------------------------------------------------
Source: Faleh Abdul Jabbar, ``The State, Society, Clan, Party and Army in Iraq,'' From Storm to Thunder (Tokyo:
  Institute of Developing Economies) March, 1998, p. 12.

Taken from Phebe Marr, The Modern Histroy of Iraq (2nd edition) (Boulder, Colo.; Westview, 2003), p. 309.


                                ANNEX 3

    Ethnic and Sectarian Background of Political Leaders, 1948-1998


------------------------------------------------------------------------
                       Arab                  Kurd/   \1\ Other/
                      Sunnis    Arab Shi'a  Turkmen    Unknown    Total
------------------------------------------------------------------------
Old Regime 1948-
 58:

  Upper level \2\    24 (61%)     8 (21%)    6 (15%   1 ( 3%)        39
                                             )
  Lower level \3\    17 (31%)    23 (43%)   12 (22%   2 ( 4%)        54
                                             )
  Both levels        41 (44%)    31 (33%)   18 (19%   3 ( 3%)        93
                                             )

Military Regimes
 1958-68:

  Upper level \4\    30 (79%)     6 (16%)    2 ( 5%  ..........      38
                                             )
  Lower level \5\    57 (46%)    43 (35%)   16 (13%   8 ( 6%)       124
                                             )
  Both levels        87 (54%)    49 (30%)   18 (11%   8 ( 5%)       162
                                             )

The Ba'th Regime
 1977-78:

  Upper level \5\    10 (48%)     6 (29%)   .......   5 (24%)        21
  Lower level \6\    13 (52%)     4 (16%)    6 (24%   2 ( 8%)        25
                                             )
  Both levels        26 (57%)    10 (22%)    6 (13%   7 (15%)        46
                                             )

1986-1987:

  Upper level         9 (53%)     6 (35%)    1 ( 6%   1 ( 6%)        17
                                             )
  Lower level         8 (38%)     4 (19%)    6 (29%   3 (14%)        21
                                             )
  Both levels        17 (45%)    10 (26%)    7 (18%   4 (11%)        38
                                             )

1998:

  Upper level        11 (61%)     5 (28%)    1 ( 6%   1 ( 6%)        18
                                             )
  Lower level         7 (26%)     8 (30%)    3 (11%   9 (33%)        27
                                             )
  Both levels        18 (40%)    13 (29%)    4 ( 9%  10 (22%)        45
                                             )

------------------------------------------------------------------------
\1\ Includes Christians.
\2\ Includes the regent, prime ministers, deputy prime ministers, and
  the ministers of interior, defense, finance and foreign affairs.
\3\ Includes all other miniosters.
\4\ Includes the president in place of the regent.
\5\ Includes the RCC and the Regional Command of the Party, (RL).
\6\ All ministers not on the RCC and the RL.

Sources: Phebe Marr, ``Iraq's Leadership Dilemma,'' Middle East Journal
  24 (1970), p. 288; Amatzia Baram, ``The Ruling Political Elite in
  Ba'thi Iraq, 1968-1986,'' IJMES, 21 (1989), appendix 1; unpublished
  data collected by the author.

Taken from Phebe Marr, The Modern Histroy of Iraq (2nd edition)
  (Boulder, Colo.; Westview, 2003), p. 309.


    The Chairman. Thank you again, Dr. Marr, for your 
testimony. We've appreciated it at each stage along the way as 
we've been visiting as a committee.
    Let me commence the questioning and suggest we have a 10-
minute round for Senators. I'll begin by indicating that as I 
heard you, Mr. Khouri, you mentioned, probably accurately, that 
for 90 years many people in Iraq, and perhaps in other 
countries as well, have been raising issues as to how life 
might change for the better. As a matter of fact, they have not 
been able to make much of a breakthrough in 90 years. Some of 
it may have been due to imposition by Europeans, some due to 
home-grown Iraqis, but nevertheless it is a rather dismal 
prospect.
    As Dr. Marr has pointed out, it could be argued that the 
United States came along without going into the rationale for 
whether war should have occurred in Iraq or not in the first 
place. Nevertheless, one did. One of the two alternatives that 
you suggested was a rather limited outcome: namely the top 
leadership is removed, somebody else continues on, and 
therefore this yields a fair degree of stability. We don't have 
occupation, insurgency, because essentially somebody's left to 
handle that. However, that probably would not have met the 
point of the 90 years. It is not clear that that would lead to 
many resolutions of those same questions.
    What we decided to do was, as Dr. Marr said, more radical. 
Central government is gone, civil servants are gone, a lot of 
things are gone, including the army, so it's an open terrain. 
Now in the midst of that, you say quite correctly that perhaps 
Americans don't understand the cultural things. We need to 
understand these better. We keep talking about liberty and 
freedom, talking about individual rights and privileges. You 
make the point that well, after all, Iraqis think more of 
family, of tribes, of collective situations. This may be true, 
but nevertheless it is sort of daunting if you are an American 
looking at this question today trying to think through human 
rights, democracy, freedom of religion, all these terms that 
were used this morning and probably will be used this 
afternoon, in addition to religion itself.
    We had Senator Brownback, our colleague, pointing out or 
asking, almost pressing, as you recall, Ambassador Bremer to 
guarantee that there was not going to be an Islamic 
constitution, and that there was not going to be a tyranny to 
begin with in this whole process. For many of us that would 
make democracy rather suspect. Although people can say 
democracy is democracy, many have said that one of the problems 
of democracy in the Middle East may be thwe possibility of a 
``one time through.'' You have one vote, the new rulers are 
installed, and that's it, school's out, no more chitchat 
afterwards. That would be a great disappointment.
    So in the midst of all of this, the constitutional group 
has been appointed. Some of you have questioned how they got 
there and the legitimacy of the product if there is not more of 
an election or selection of these people, and that's important. 
Ambassador Bremer, if he were here, might say that one of the 
problems is first of all the need to conduct a valid census to 
determine who is eligible to vote in Iraq. How do you do it? By 
districts or by tribe or by sector? How is the constituent of 
this constitution formed? These are important questions. 
Clearly there would be some differences and technically it's 
not clear how you get there.
    In the midst of this, as Dr. Marr points out, and as all of 
us have been saying, time is going by rapidly. Occupation is 
resented and the pressures therefore upon Americans or whoever 
is there--if we get other countries and so forth--appears to 
increase as Iraqis become impatient with these people hanging 
around while they want to get on with life. And yet, at the 
same time, most of you counsel that we should take it a little 
bit slower, and make sure that the product of the constitution 
is done well, that the legitimacy of the elections that follow 
is assured and so forth, that the constitution at least 
literally geographically is done well, not made into something 
that can be tangled or disentangled and what have you.
    To say the least, this is a daunting task as you pile one 
stipulation on top of another. In the midst of this Congress is 
being asked to vote for $87 billion with these hearings as a 
background. Now, in part, $64 or $65 billion, as pointed out, 
is to support American troops for another year. If they're 
going to leave we wouldn't need to spend the money. The other 
$20-some billion is literally a gift to the people of Iraq. It 
is no more or less than that.
    Some of our group are talking about lending the money, 
getting stipulations, using collateral and so forth. Yet 
essentially you heard Ambassador Bremer rejecting this because 
he says Iraqis already are plagued by these debts of Saddam, 
$150 billion or $200 billion or whatever it may be, and some of 
the claimants, other countries, still want their money. In 
other words, the only protection Iraqis have right now is us. 
We'll have to talk seriously about how we approach the 
Russians, French, Germans, Kuwaitis, a whole lot of people, 
about forgiving a whole lot of debt.
    Otherwise, whatever we're discussing here is overhung by a 
huge amount of debt. Countries that want their hooks into the 
country to get their money and are not going to be all that 
fastidious about the rudiments of democracy that we're talking 
about right now, might be willing to settle for a regime that 
fits their national interests, whatever they may be. So this, 
without putting too fine a point on it, is sort of a one-time 
opportunity for Iraq. No country has ever had such an 
opportunity before, in which literally a lot of dead wood has 
been cleared away. The question is, in a short period of time, 
while American money is coming in, in essence to provide lights 
that never were there, well beyond anything Saddam had to light 
up the country, as well as sewers and water and roads and all 
the rest of it, so that there will be some semblance of 
possibility for economic improvement, and so that Iraqis can 
focus on a constitution, on elections, and on something that is 
tangible.
    I would just say finally that Senator Hagel, Senator Biden 
and I participated in the world economic forum panels. We were 
all on different panels. There were always members of the Arab 
League on the panels aswell as other people who were very 
interesting. We anticipated that a lot of these people at the 
forum might gang up on us as the representatives of the United 
States. Europeans, U.N. types, Arabs, all might be after us. 
Surprisingly, what we found was that most Arabs came to the 
conclusion that there aren't Arab democracies. Democracy just 
hasn't made it in the Arab world. They criticized themselves 
for their lack of any example of this whatsoever.
    I make that point because of the glib thought that somehow 
people have been yearning for democracy all these years, it's 
just under the covers and all you need to do is finally give it 
a chance. That's the reason for this hearing. There is 
skepticism in the Senate as to whether democracy can occur at 
all in Iraq or if what arises has any bearing on democracy. 
There would be some form of governance, as there has been for 
90 years. There have been monarchs and then dictators. Maybe 
there will be theocracies next; we don't know.
    Is democracy possible? Is there at this point in the life 
blood of the country a yearning for compromise, for listening 
to others, a sense of individual rights and liberty or at least 
something pretty close to that, as well as some reverence for 
the role of women in all of this? Very tough questions, I 
think, given the 90 years that we've been discussing it.
    I want any of you to, give me an optimistic view. What is 
there going to be at the end of the trail of this, after all 
the money is spent and all the difficulty has been sustained? 
Probably throughout all of this, despite our best hopes, 
insurgency will continue. We don't know from where. Iraqis 
killing Iraqis, quite apart from Americans, totally irrational, 
except in the minds of the killers, who presumably know what 
they are doing and who they want to kill. Who can give a ray of 
optimism to this situation? Yes, Mr. Khafaji.
    Dr. al-Khafaji. Mr. Chairman, I know that anyone who 
ventures to say that he will give the response is a very tall 
order, so I don't--they are very, very----
    Senator Biden. We Americans are easy. Just tell us you love 
us and we're OK.
    Dr. al-Khafaji [continuing]. And the story might not be 
pleasant. In 1958, sir, the first Arab woman minister was 
appointed in Iraq, and for the first time in the history of any 
Arab and Middle Eastern country, there was in the so-called law 
of personal status for the first time the equality of women and 
men, which is contrary, an explicit contradiction to the text 
of the Koran, was stated in Iraqi law. The United States 
opposed that regime and fiercely fought it as pro-Soviet and it 
was not a pro-Soviet regime, certainly it wasn't a pro-Soviet 
regime.
    I'm saying this not in order to scratch the wounds. The 
United States is a leading country, therefore you might not 
remember that, and if I were an American, I wouldn't remember 
that, that's a little detail. But for the Iraqis themselves, 
for the collective memory, the skeptics have points to score. 
Now I know, as many of you know, that many will use it to 
manipulate it in order to steer some kind of anti-Americanism, 
and I, as thousands upon thousands Iraqis have, in our 
conscience have always distinguished firmly between a 
repugnant, even some kind of racist anti-Americanism and what I 
call a healthy critique, a friendly critique of U.S. policy.
    In that sense, please have patience with us. When in April 
and May, during the euphoria of the fall of Saddam, a cab 
driver, many actually, cab drivers in Baghdad, and I'm quoting 
literal examples, would tell you, as much as this might look 
naive, that this whole war is a conspiracy between Saddam 
Hussein and the United States. And when you ask why, they tell 
you because all the Ba'athists are in place that was under 
retired General Garner and his team, all the Ba'athists are in 
place. They will do to us what they had done to us in 1991 when 
they encouraged us to revolt, now they are encouraging us to 
oppose, and eventually the Americans will withdraw and Saddam 
would come back.
    Now, this is something that goes deep into the conscience 
and the hearts of people is that in 1974, sir, a question could 
be very justifiably asked, how can Portugal go into democracy, 
they have never had traditions of democracy before. That was 
Salazar, and the same could be said about Franco's Spain, the 
same could be said about Eastern Asia, the same could be said 
about Eastern Europe. And duly so 50 years ago a standard 
textbook in political theory would ascribe that to Catholicism, 
that was what we read in the 1950s, Catholicism is resistant to 
democracy, that's why Latin America, France, and Portugal are 
not democratic. Then orthodox Christianity, that's why Eastern 
Europe and Russia, and then we read about Confucianism, that's 
why Eastern Asia, simply because if you are democratic, you 
only plunge into democracy when you had no prior democracy. 
Once you are democratic there is no likelihood of a democratic 
nation turning into tyranny, so it's quite understandable that 
countries who go into democracy have no prior institutions 
about democracy.
    We have to deal with this. Times have changed and many in 
the U.S. Congress and the administration have realized that. 
The stability that my esteemed colleague, Dr. Marr, with whom I 
have so much agreements and also disagreements, with due 
respect, the stability is the residue of the cold war era when 
the idea was to reduce this region into a supplier of oil. Oil 
requires stability. Stability requires non-empowerment of the 
people because this might fall into the hands of our arch 
enemy, the Soviet Union. Let's keep tyrannies in place rather 
than open up the Pandora's box that might bring us the enemies, 
and even and I am proud that I was involved in the workshops of 
2002 and in the IRDC, the Iraq Reconstruction and Development 
Council.
    And we saw that with our own eyes, and you saw it in the 
front page of the New York Times when a Ba'athist minister was 
imposed by the Coalition Authority to be the new Minister of 
Health and Ambassador Bodine, who was the No. 2 under retired 
General Garner, was telling me, well, the doctors have imposed 
their nominee, a non-Ba'athist, and my reply was simple, yes, 
they will impose that, but do you want the Iraqis to come out 
and say, we imposed our nominee despite the United States or 
with the help of our allies. They forced the Coalition 
Authority to take their Ba'athist nominee.
    The point is this, once you go into ideological debates, 
either from a total blanket resolution to keep each and 
everybody in place, or to remove each and every brick from the 
old regime out, then we are the victims of it, because how can 
you steer a mid-way, you steer it by empowering the people, by 
going into the ministries, trusting the people, and asking 
them, who was corrupt or criminal and who was not, and not by 
decreeing from the Presidential palace that any member belong 
to this or that rank or above will be removed or anyone in that 
or this place would be removed. By trusting the people we can 
go into that.
    But I can tell you that Iraqis who in the first month 
produced 100, and now we have 120 dailies in Baghdad, despite 
the insecurity, this is chaos but it's a beautiful chaos, it 
tells you how much are Iraqis yearning for free expression. 
When people have no single authority religious within the 
communities, when many people tell you that, with due respect, 
I have nothing to do with them, when the supreme and I'm not a 
strong believer when the supreme musted of the Shi'i says that 
all we want is to say that the constitution will respect the 
enlightened teachings of the religions of God and according to 
Islam, Christianity, Judaism, and Islam are the recognized 
religions of God.
    I don't think, sir--I know that I've taken much of your 
time--but in my closing, I don't think that democracy is 
democracy because and I wrote that several years ago that we do 
not expect Jeffersonian democracy to flourish in the day after, 
but even in Jeffersonian democracy, the African-Americans did 
not get the vote in the 1700s, the women did not get the right 
to vote at that time. It's when tomorrow when a Christian, 
respectable Iraqi would run for the Presidency, then we will go 
into the fight to amend a constitution that might now have 
reference to Islam.
    The point is this: Can we force the inviolable rights of 
the individual in a new constitution? I think millions of 
Iraqis will fight for that. Can we then move from that, use 
that as a basis in 3 years to fight for the right that, yes, 
you said we take the teachings of Islam, but this is a 
Christian who wants to run for our President, would that do? 
And I think this is how we will build it. Europe didn't go into 
democracy on the first day that they established democracy. 
Women got the rights in the 1920s, 1930s, and some countries in 
the 1950s, and I think we are now, I wouldn't say in a better 
place, but at least in an equal place, so just give us the 
chance.
    The Chairman. I'll return to my question later on, but I 
want to recognize my colleague, Senator Biden.
    Senator Biden. Thank you. These are among the best hearings 
that we have. We have hearings for two purposes, one for 
oversight and one to learn. In one sense, we're learning from 
oversight hearings but we're demanding answers to determine 
whether or not commitments made or requests being made makes 
sense and are consistent with what the Congress wants to do and 
the American people. These hearings are--I find them the most 
interesting because I learn the most with such competent and 
prominent people with diverging views.
    I'm going to resist what at least two of you know because 
you've been kind enough to come to my office repeatedly and let 
me question you and seek your input and knowledge. I'm going to 
refrain from doing what I would intellectually enjoy the most, 
pursuing some of these broader questions, and try to be a 
little bit pedantic, maybe my constituents might say a little 
more practical for a moment, and I want to raise with you what 
the flashpoints of the moment are, the decisions that the 
President of the United States has to make now, the decisions 
that the Congress has to make now, and get your input. And in 
the interest of time I'd like you all to be neither 
professorial or senatorial, and that is, try to give me a yes/
no answer or as close as you can get to it. I realize there is 
no real clear yes or no, and I would, if we have time, come 
back and have you fill in, back-fill, your rationale for why 
you would reach the conclusion that you stated.
    There are many of us who have been talking about 
internationalizing this effort. Now, none of that goes to any 
of the points that any of you raised here. But right now we 
have a Secretary of State at the United Nations trying to get a 
consensus from the Security Council that may be totally 
irrelevant to what the people in Iraq are concerned about. It 
may be relevant, it may impact positively, it may impact 
negatively, but the point is, at this moment, the first 
flashpoint, if you will, is whether or not the schools of 
thought and they're divergent but I'm going to just broadly 
categorize them in two camps. As Samuel Clemens once said, 
``all generalizations are false, including this one.''
    There are those who suggest that if the international 
community via the United Nations were brought in in a 
meaningful way, they would only be an impediment in moving 
toward self-rule for Iraqis, getting the lights on, getting the 
wells dug, getting the canals cleaned, getting the 
infrastructure up and running, and they would be an impediment. 
There are others who argue that whether or not they may slow it 
up is debatable but there's a need to take the U.S. stamp off 
of Iraq, and that is that right now there's a need to change 
the complexion, if you will, literally and figuratively, of the 
occupying force so it's not a U.S. occupying force alone, and 
further, that there is a need in order to establish legitimacy 
and get help from the rest of the world to bring the rest of 
the world into the deal in making decisions.
    Some of the people we're talking about bringing in have not 
been particularly friendly to the Iraqi people over the last 90 
years. The French, for example, who are our antagonists at the 
moment at the United Nations on the details here, are folks who 
have had experience or that the Iraqi people have had 
experience with. The United Nations has not been particularly 
popular with the Iraqi people or in Iraq for various reasons. 
And so the irony is the very people that some of us are saying 
we need to participate in this process to get a world consensus 
are folks who are not particularly popular on the streets, 
whether it's in Mosul or Baghdad or anywhere else in Iraq.
    So here are the things I'd like you to respond to if you 
can. Is there any advantage for the Iraqi people or in a very 
way selfish sense, from my perspective as a U.S. Senator, for 
the United States of America to change the complexion of the 
occupying force while we are attempting to Iraqize--the phrase 
one of you used--the military force and the police forces of 
Iraq. That is not able to be well, I'm assuming none of you 
think that's able to be done immediately, that this very day to 
turn over to the Iraqi people, whomever that would be, say you 
take care of the military, you take care of the police, we're 
leaving.
    I don't know many arguing that, so everybody's 
acknowledging there's some transition here, there's some 
transition time to get this as rapidly as we can to an Iraqi-
elected government, an Iraqi-run police department, an Iraq-run 
military, Iraq-run security forces, right? Is that what we're 
saying? So it is an advantage or disadvantage or is it 
irrelevant that while that process is moving, how quickly or 
slowly is debatable, that it's good to have other forces, other 
uniforms, French, German, Portugese, Russian, Pakistani, 
Indian, forces standing on street corners or standing in 
barracks in Iraq? Is that a good thing or a bad thing? Anyone? 
Yes.
    Dr. Feldman. Senator Biden, that will help us in Brussels; 
it will help us in Berlin; it will not help us in Baghdad. The 
bottom line is that international troops will be no better able 
to control the insurgence that exists or the foreign terrorist 
who are there than are our troops, because the key to 
controlling them is local intelligence and international troops 
won't have any advantage over our troops in doing that.
    Similarly, in terms of getting the lights back on, there 
will be some time transferring power to the U.N. Their help is 
valuable but there is no reason to think they can do it better 
than our troops can do it. On the other hand, it will help 
repair some of the breaches in our international relationships 
that have come about over the course of the last year and it 
will eventually in the long run help the price tag for the 
American taxpayers.
    So there are definite advantages to proceeding with that 
course but they are not going to be felt on the ground 
primarily in Iraq.
    Senator Biden. Does anyone disagree with that?
    Mr. Khouri. I would agree generally, but I would say there 
is a significant advantage to internationalizing it because it 
would completely change the climate and the perception of the 
United States' role in Iraq and I think if you were to do this, 
which I would urge you to do, I would urge the U.S. Government, 
is I think it must be coupled with a more clear American 
explicit explanation of what it is that the United States would 
like to see happen on the democratization issue, not only in 
Iraq but in the whole region, because one of your problems is 
not just that you're an occupying force in Iraq militarily 
occupying Iraq, but people suspect and are concerned about 
American motives in the region, and remember Colin Powell last 
year, at the U.N. I think, said that the United States wants 
to--I don't remember the word he used--reshape the Middle East 
I think was the word he used, or redraw the region or something 
like that.
    You know, we've been through this film before. We've been 
through this film several times, not only in the 20th century, 
we've been through it with Napoleon, we've been through it with 
Alexander the Great in the third century B.C., so this is 
nothing new to us. So I think it's critically important to get 
the United States out of this situation it's in right now as 
being an occupying power that has motives to change the values 
and systems of people in the region. That's how the United 
States is perceived and internationalizing it would help that.
    Senator Biden. There's a lot to discuss and let me go to 
the next question because my time is going to be up. A debate 
at the United Nations now I'm oversimplifying again, but to 
make the larger point. We're saying constitution first, vote 
second. Others are saying vote first, constitution second. The 
French position is right now get an elected government, even 
though I don't know how you do that since there's no voter 
rolls, there's no way to make that judgment initially, but 
vote, then write a constitution, vote for constituent assembly, 
then write a constitution.
    We're saying write a constitution, then have a vote, not 
only on the constitution but on the constituent assembly. I 
realize there's permeations of each of those things, but 
generically we understand what we're talking about, rapidly go 
to a vote--whether rapidly means weeks, months, 2 months, 3 
months--then draft a constitution, or do the reverse? Yes, sir.
    Dr. al-Khafaji. Sir, I think that, and it's in my written 
comments, when we say, I think many Iraqis say in 6 months we 
can have a constituent assembly. The constituent assembly by 
definition would not be the permanent elected government of 
Iraq, but it will give a semblance of legitimacy. Do we have--
--
    Senator Biden. How would you do that constituent assembly? 
Would you have just a nationwide vote, not based on provinces 
or anything, putting people up in slates for each of the 
offices? How do you get that?
    Dr. al-Khafaji. Yes, sir. The one non-interim constitution 
that we have in our history as a modern state is the one that 
was adopted in 1926 after a constituent assembly was elected in 
that tribal, at the time, peasant society. Now we have a 
country which is 70 percent, 72 percent, to be precise, urban. 
I do not claim that the population censuses are precise, but at 
least from the rations of the Food for Oil program each and 
every family has a register with the Ba'athist government order 
to receive the cards, so we can do that on a national level. 
There will be distortions, yes, but it will at least have the 
claim to legitimacy much more than a body that's not elected.
    My point is this: Does the United States have to cede 
sovereignty to that constituent assembly? No. That will be a 
transitional government. The United States will state what it 
does not, the red lines that it does not want Iraq to cross 
beyond, aggressiveness, weapons of mass destruction, the type 
of authoritarian government, and through that, it can reduce 
its military presence without eliminating it altogether, and I 
think as the poll that you mentioned, Senator, and many of the 
distinguished speakers today, I think that through that Iraqis 
no Iraqi, with a few exceptions want the Americans to leave 
now. The point is that to internationalize the economic 
decisionmaking----
    Senator Biden. No, look, I understand that. I'm a plain old 
politician and I'm trying to figure out, I'm sitting in my 
state that's in chaos, forget Iraq, and I'm trying to figure 
out how I hold an election, just the mechanics, unless you take 
the existing constitution in 1928. Wasn't there a constitution 
in 1953?
    Dr. al-Khafaji. In 1958.
    Senator Biden. In 1958. Unless you take one of those, it's 
a very practical thing. We went through 200 years of debating 
about whether it was one man, one vote, in Baker versus Carr to 
determine whether or not it's based on geography, based on 
population. So there's a very practical question: Who makes the 
judgment as to how you break up the country? Is everyone 
elected at large? Do you elect 200 people at large? Do you 
elect people by district? If you elect them by district, what 
districts do you choose?
    Dr. Marr. Senator, you choose the districts that are there. 
We have to remember that Iraq is an organized country----
    Senator Biden. So take it exactly as that. That's the 
easy----
    Dr. Marr [continuing]. There are districts. The Kurds did 
this. It may have been messy----
    Senator Biden. No, I got it. I'm taking too long. So what 
you're saying is, take the existing political structure, not as 
it relates to values and laws, but as it relates to divisions 
of constituent assemblies, how you would choose it, and start 
from there. Is that what you're saying?
    Dr. al-Khafaji. Yes, sir.
    Senator Biden. OK, that's important.
    Dr. al-Khafaji. As for the internationalization of 
security----
    Senator Biden. No, no, no. I'm going to be just a very 
simple, plain old local county councilman here. I'm trying to 
figure out how you do this because I've learned from my 
experience in Kosovo, which is different, in Bosnia, 
Afghanistan, this is one house at a time, one neighborhood at a 
time, all these grand schemes don't mean a damn thing if there 
is not some very practical ability to be able to implement 
whatever it is you say you're attempting to do.
    Noah, excuse me for using first names. You're all doctors, 
so if I say doctor, you'll all answer.
    Dr. Feldman. Please, Senator. Bottom line, talking basic 
politics.
    Senator Biden. Yes.
    Dr. Feldman. An election held quickly gives a huge 
advantage to the two people, the two groups that can organize 
the fastest.
    Senator Biden. Absolutely, you got it.
    Dr. Feldman. They are the Ba'athists, who can easily 
reorganize, and Islamists, especially more extreme Islamists. 
So a fast election prior to a constitution is a very high-risk 
proposition. It's not one that I would entertain lightly.
    Senator Biden. But obviously there's disagreement on that.
    Dr. al-Khafaji. Well I have been opposing the Islamists and 
the Ba'athists much longer than I think many others have been, 
so it would be more terrifying to me than many others about 
spending the rest of my life in exile, sir. First, we are 
talking about at least what is suggested to you is something 
like 6 months, 6 months with improvements, slight improvements 
in the everyday life of Iraqis would not bring that likelihood.
    This is what we have been terrified by all kinds of 
tyrannies from Syria to Iraq, et cetera, that a regime creates 
a void and then terrifies you, if you do not vote for me, then 
the Muslim brothers or et cetera will come in. I think that 
this is not the case. If the majority of the population were 
pro-Ba'athist now we wouldn't have two dead Americans per day, 
and I really feel sad for each and every drop of blood. We 
would have seen hundreds in a country the size of Iraq the way 
you described it.
    Senator Biden. I understand your point.
    Dr. al-Khafaji. What I think is this, that in the 6 months 
if you have some kind of slight improvement, at least in the 
expectations of Iraqis, then we would not have will there be 
Islamists? Yes, there will be Islamists, and it's not good that 
we just shut our eyes and pretend they are not, but we have 
seen the Islamists that have been working with the Coalition 
Authority and we have seen Islamists----
    Senator Biden. I don't have a problem with this. I'm just 
trying to figure out practically how you'd go about it. Last 
question I have: My latent fear here is, to use an overused 
metaphor that everybody's been using in the last year and a 
half, that a perfect storm is brewing here, and the perfect 
storm is the neoconservatives who are going to want to get the 
hell out of here as quick as they can, the liberals in the 
Democratic Party are going to want to get out as quick as they 
can, and the American people generically are going to want to 
get out as quick as they can. And the irony of all ironies is 
all those folks in the Middle East who think we don't want you 
to have sovereignty are absolutely dead wrong.
    There is going to be, I predict to you, if something 
doesn't change quickly, a desire to confer sovereignty on 
whoever will stand up and say, I'm Iraqi, because the pull to 
get out of Iraq is going to be so strong. And Iraqis are going 
to get what they wish for. This ain't an imperial nation. This 
ain't one who is going to want to hang around there, and the 
American people understand oil isn't enough. This was never 
about oil. There ain't that much money there. It's costing us 
more money than all the money we can possibly get if we took 
every damn oil well and every bit of the oil revenue for the 
next 5 years.
    And so you're going to get what you asked for. You're going 
to get, my concern is you're going to get the American public 
from left and right saying, get out. OK, Saddam's gone, done, 
we're leaving, on our way. You're going to watch American 
troops leave here more rapidly than you can possibly imagine. 
That is my prediction to you and I'm not a bad politician. I 
may not be as good as I think I am on foreign policy but I'm 
pretty good at American politics. I'm telling you what's coming 
if we don't get this straight.
    Now here's what you all are saying. You're saying three 
things. Look, you need Iraqi intelligence to be able to figure 
out how to deal with this. More foreign troops aren't going to 
matter, and by the way, you're stating the obvious truth. 
Iraqis know the neighborhood better than we know the 
neighborhood.
    Now how do you get that Iraqi army, that Iraqi police 
force, and that Iraqi business establishment? The business 
establishment of the Iraqis that existed before existed 
essentially at the sufferance of Saddam Hussein. You wanted an 
export license, you went to Saddam Hussein. You wanted to be in 
business, you went to Saddam Hussein. So now we're saying, 
look, here's what we're going to do, we're going to go out 
there and make sure that the Iraqis are able to contract, the 
Iraqis can bid on building the road, building, importing this 
or that or whatever and not foreign business. I think that's a 
very good thing, but who are the ones ready, as Noah said, 
relative to the parties?
    What I'm looking for from you guys, and I know you can't do 
it right now and I've gone way over my time and the chairman, 
because he's so nice to me has allowed me to do it, but I'm 
getting Mr. Brownback upset, I suspect, because he's got some 
even better questions than I have. But what I'm looking for, 
and you may not be able to do it now, but I'm looking for 
practically, you are sitting in Iraq today, Rami, you tell me, 
not this moment, you tell me who you put in charge of the 
police force. Who is it? Don't generically tell me let's move 
it quickly. I went and visited those guys. They're the 
Katzenjammer Kids. They could not arrest their grandmother.
    This is an absolutely dysfunctional police force and it 
always was dysfunctional. You never had a police force. Look, 
the reason why there was peace and security for people walking 
the street in Iraq, if there was a murder in an apartment 
complex everyone was told to come down to the police station, 
no one went to the complex. And if they didn't show up, Saddam 
shot them. I can maintain order that way no problem, but the 
idea there was a police force with investigative capability, 
with an intelligence component, it didn't exist, it didn't 
exist.
    And so I have a very practical concern here. I'm on Noah's 
team. I've been scarred by Kosovo and Bosnia. I learned one 
thing: early elections in Bosnia, guess what? All the factions 
won, the most radical of each of the factions, the Bosniaks, 
the Serbs, and the Croats, the most extreme elements of each of 
those took power and that was it. We did a little better in 
Kosovo. We kicked the can down the road. It didn't quite happen 
that way. We gave other democratic institutions a little more 
time to move along, not perfect, better, better.
    So we're sitting here now and we're saying, let's turn over 
the army, let's turn over the police, let's turn over the 
business, and I'm sitting here thinking to myself, well, I tell 
you what, if we're going to do that that quickly, and we may 
have to practically, if we do that that quickly, and I'm not 
sure I'm going to vote $87 billion for that, because I think 
the chances of that succeeding are about as likely as this cup 
of coffee levitating and coming down and sitting on your table. 
I pray I'm wrong, I pray I'm wrong, but listening to the advice 
you all gave me before we went in and by the way, I want to say 
for the record, Dr. Marr, what you said today, you said a month 
before we went in, and you were right then and you're right 
now. Rami, you said 2 months before we went in that these 
things were going to happen, and you were right then and I 
think you're right now.
    But I'm not even going to let you respond until after my 
friend from Kansas gets to speak, but I'm looking personally, 
just Joe Biden, I'm looking for practical ways in which, if 
you're sitting there in Baghdad in Bremer's spot, how do you 
turn over the power. Whether Bremer wants to or not, let me 
tell you, the American people want to get the hell out. They 
want out.
    Everyone in the rest of the world thinks we like being a 
superpower. No one where I live, no one where I represent likes 
being a superpower. Superpower to them is like being the big 
brother in a family of 12 where the father holds you 
responsible for every single mistake the 11 kids make when he's 
away. They don't like it. They don't want one of their kids 
over there. They don't give a damn about it. They want their 
kids home.
    So we better be really careful here about how we do this 
because we're going to end up with having created chaos in the 
region, Iran in the driver's seat, and a Turkish Islamic 
republic reconsidering their options, and the Pakistanis 
deciding, whoa, wait a minute, we have a better deal another 
way. Anyway, I'm sorry, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Biden. Let 
me just say that the Senator has voiced many of the 
frustrations that many committee members feel about all of 
this. I think in fairness, the Senator from Delaware, the 
Senator from Kansas, who is still with us, and myself will 
probably still be here trying to think through how the Iraqi 
people might come to a better conclusion as opposed to 
colleagues maybe from the left, right, wherever, who are ready 
to bail out.
    We are sort of a solid center of the situation who believe 
that we really must work constructively. We therefore 
appreciate your hearing us even as we hear you, because the 
injustice of all of this seems to be overwhelming. Having 
argued with people all morning as to why America should give 
$20 billion to Iraqis and to listen to what it seems to be 
consummate ingratitude for the whole business is difficult, but 
nevertheless life goes on. And so we will continue with the 
hearing, and Senator Brownback.
    Senator Brownback. You couldn't put it any better.
    Senator Biden. Just one piece of humor here. Dr. Marr, when 
you and I were--I'm older than you, but when we were a little 
younger and you were a young female professor, they used to 
talk about women having to vent a little bit. Well, you know, 
men do it too sometimes. That's what you're witnessing here, 
OK?
    Senator Brownback. I thank you, Mr. Chairman, it's a good 
hearing and it's a good discussion here and I particularly 
appreciate Senator Biden's thoughts on this too. It is 
interesting, I was in the hearing this morning, and I'm on 
Appropriations so I'm going through that set of hearings, and 
it is, as Joe says, on the one hand, people saying $87 billion 
to do this and then you're saying, yeah, and we hate you for it 
or we don't like you for it or we think you've got illicit 
motives for it and it does represent a confusing set of stimuli 
involved in the process that you're presenting to us. 
Nevertheless, as the good Senator from Indiana says, this is 
where we are, and he's right.
    And I would point out to those of you here and I've had Dr. 
Marr testify in front of me on the subcommittee, we had it in 
the region before this committee had considered it--for a long 
period of time--the issue of Iraq. We had the Iraq Liberation 
Act before that period of time. We were stewing and churning, 
how do we deal with Saddam, we had all these defense forces 
positioned in Saudi Arabia, maintaining no-fly zones, we had 
issues going on in the north. We've been churning on this for a 
goodly period of time and if any of you in going back to the 
region could communicate to people that we have nothing but the 
most altruistic of motives involved here, I hope you could 
convey that to people in your own personal experiences and in 
the places that you speak of.
    We don't want Iraq. That is I don't. You could poll a 
million Kansans if you want to and I don't know if you'll find 
one that says that we want that. That is not our desire, but we 
do desire to move forward a set of ideals because that's been 
the nature of us as a country. And at the root of it is our 
notion of liberty and that we stand for liberty and it's a 
foundational principle for us and it's one that we stand for 
for our people and we've stood for around the world for other 
people and when we see others that don't have it we desire it 
for them. We abhor chains, for us or for anybody else. And 
that's really what motivates us more than anything else.
    I want to go at a narrow issue and appeal to you. I heard 
your testimony, I've read portions of it, I've read some of 
your writings, and that's on the issue of religious freedom, 
religious liberty. I think this is a central issue in the 
founding of a constitution in this country. And I want to back 
up just a minute on this. I mentioned this this morning, 
Senator Lugar mentioned it in is comments as well, but I think 
this really deserves us looking at this ``y'' in the road and 
determining which way we as the United States want to proceed 
forward in pressing this issue. We go into Iraq on the issue of 
terrorism. We pass the Iraq Liberation Act on dealing with 
Saddam Hussein, we call for regime change in that, 1998, passed 
by Congress. This is really an issue started by Congress, 
signed into law by President Clinton.
    So we're here where we are today. The President engages 
this policy, engages it after September 11, it probably didn't 
have the legs to move prior to September 11. After September 
11, we changed as a country. We decided we're not going to let 
the terrorists come to us, we're going to go to them, and we're 
going to deal with regimes that allow terrorists to operate 
freely on their soil. So we're involved and we're here.
    We go into Iraq and one of the key issues of why we go into 
Iraq is to say we want to spread democracy and open societies 
in the region, saying that this region is the one--apparently I 
haven't quantified this--but one of the most resistant to 
democratization and open societies in the world
    Rami I think you mentioned it, here we are in the, what, 
third generation or 300 years talking about this, the same 
questions you had 300 years ago. Why?
    In Iraq, part of going in then was to say, OK, we're going 
to work on really having a model democracy open society that we 
hope will infect the region when they see how people operate so 
well. We have a number of Iraqis in the United States. I think 
Saddam ran out something like 17 percent of the Iraqi 
population fled during his tenure. A lot of them came to the 
United States, open society here, you know what, they did very 
well here by and large. I wouldn't say that of all Iraqis but 
the ones I've met they did very well in a nice, open society 
here.
    Now, the issue of religious freedom, I don't think any of 
you could argue that is central to the background and the 
history of the United States' development as an open and free 
society, absolutely central religious freedom, just as 
absolutely it was the first people coming to the shores were 
seeking religious freedom. And then they offered and opened it 
up to everybody. They didn't say this is a Christian nation in 
the Constitution. As a matter of fact, there was a big--there 
were discussions about that. We still have discussions about 
this. My faith is very important to me. I don't want the 
government to set that. It's too important for the government 
to set that.
    If we go to Iraq now and we're pressing and we're pushing 
for an open society, and we say in their constitutional 
convention, their constitutional drawing, you can go ahead and 
declare that this is an Islamic country in the constitution and 
we don't think that's very wise but we're not that adamant 
about it, I don't think it's the right thing to do, but we're 
not particularly adamant about that, I think we are leading 
them fundamentally down a wrong track that will not lead to the 
freedom that they need to have as an open, operating society.
    And if we do it there it will be watched aggressively in 
the region in our hopeful spread for democracy, and we'll see 
other countries saying, well, OK, they can declare themselves 
an Islamic society even though probably our best example in the 
Islamic world, Muslim world, of a democratic country is Turkey, 
has a secular constitution, Indonesia, secular constitution. 
Then the Arab world, Lebanon, secular constitution. And by that 
I mean, I don't mean they're secular countries, far be it, they 
are not. But in their constitution, they do not establish this 
is the religion of this country.
    And if we as a country just say, OK, all right, we really 
don't like this, but we think it's OK if you say that Iraq is 
an Islamic country in the constitution. For us, a constitution 
is about the rights of the individual, the responsibilities of 
the government. I don't see really where this even fits even in 
it at the outset of it under our thoughts of liberty, and you 
give maximum liberties to the individual, and here you're 
giving one and you're having it by the government. What spins 
out of that eventually or where does that go? Why didn't Turkey 
put that in their initial democratization efforts? And they 
wanted to say, we want an open society.
    I think you have a problem with blasphemy laws, which we 
currently have a great deal of problem with, much of the 
Islamic region of the world. I think you're going to get 
persecution moving from one group of Muslims to another or 
against Christians or Jews or Buddhist or Hindus. I question 
how inviting it will be into the country of having other people 
come in that really need to be in the country to help, banking 
system, or other that want to travel there, how welcome or open 
will they feel to this country. I really think this is a 
fundamental issue that we need to stand and say, this isn't 
about us saying we are against or for Islam. This is liberating 
and good for Islam too to have that separation of the church 
and state, and if we move away from something that's so 
foundational for us in our experience in building an open 
society and we didn't get it right at the outset for us I think 
we got a lot of things, the basics, pretty good, but we've been 
at this 200 years building an open society and we still 
struggle with it.
    I really, really question that, and a number of you have 
worked on this issue and worked in the regions, have written on 
this. I really think we lead them down a bad path that will 
have extensive consequences for Iraq and for the rest of the 
region as well.
    You've allowed me to vent, Mr. Chairman. I'd be happy to 
hear a response or two as well. Dr. Marr.
    Dr. Marr. I would just say two things quickly speaking as 
an American, obviously. I must raise the issue here of the 
extent to which we as Americans and outsiders are going to be 
able to, and should shape, a constitution, a set of political 
arrangements in Iraq. I think we have to be very wary. As Isam 
said, there are red lines and so on. We certainly don't want to 
see clerical control over the state as in Iran and most of the 
red lines, I think, should concern our national security 
interest which is appropriate.
    I understand the urge to remake and reshape Iraq, but 
frankly, this is political and this is something Iraqis have to 
do. I also make a distinction between liberalism and democracy, 
one man, one vote, et cetera----
    Senator Brownback. Let me break in on that and I'll let you 
complete it, but how much did we shape Japan after World War 
II?
    Dr. Marr. Alot, but I think we're going to be in real 
trouble in Iraq trying to do this. We're in trouble in Iraq now 
and the whole religious issue is sensitive. Many states have 
the word ``islamic'' in the constitution but they don't really 
follow it very much. This is the point that I'm trying to get 
at. There's a rising tide of Islamic sentiment in the Middle 
East today. This is true in Iraq. The younger generation, both 
Sunni and Shi'ah, is more religious than I can remember in a 
long time. We're going to run up smack dab against a lot of 
cultural opposition there if we deal with religion and this is 
also true in the education system, which we're supposed to be 
reshaping too. This is really going to be seen as imperialism.
    So I just caution here that this is the kind of cultural 
monkeying around that is really going to generate opposition. 
However, I do think that the problem is not whether the word 
``Islam'' is in the constitution. As we all know, you can have 
a lot of words in the constitution that people are not 
practicing, including tolerance and so on. It really doesn't 
matter. We really need to work on supporting and nuturing more 
liberal values--tolerance, compromise, all of those things that 
make for the kind of society we want.
    There are ways in which we can spend that $20 billion, for 
example opening the country, encouraging exchanges because we 
need to get the attitudes and values to change, admittedly more 
slowly, to create tolerance. I don't want to say you don't have 
to worry about the words in the constitution but you can put 
words in a constitution, but if you've got a lot of people who 
are not going to adhere to it, it's irrelevant.
    Senator Brownback. What about Turkey and what about 
Lebanon?
    Dr. Marr. Turkey has had nothing but struggles all through 
the years over this issue of how much religion----
    Senator Brownback. But are they as open a society as in the 
Islamic countries at this time and as successful probably, 
economically, and I don't think there's a question economically 
that they are.
    Dr. Marr. It's now got an Islamic party in power. This is 
one of the issues facing the state. It's going to be 
interesting to see how they handle it.
    Senator Brownback. But do you have a better model for me of 
democratizing in the Islamic world?
    Dr. Marr. Offhand I don't, but maybe my colleagues do.
    Mr. Khouri. Well, one of the, if I may----
    Senator Brownback. Does anybody have a better democratizing 
model than Turkey for me in the Islamic world?
    Mr. Khouri. Well, I think, if I may say, the question is 
slightly unfair, because I think what we've had in the Islamic 
world is a modern history in which the people in these largely 
Islamic countries have rarely been given the opportunity to 
form their own systems. In Turkey, you've had a system that's 
operated because the army has stepped in every 12 years and 
kept things on track, so----
    Senator Brownback. I'll let you go on, but I want to--do 
you have a better model for me of democratizing in the Islamic 
world, a country?
    Dr. al-Khafaji. Senator, with due respect, I don't see the 
Turkish one, if we take out----
    Senator Brownback. Then give me a better model.
    Dr. al-Khafaji. We don't have any Turkish Christians or 
Jews recognized today because----
    Senator Brownback. Just give me a better country model.
    Dr. al-Khafaji [continuing]. Because they homogenized by 
blood and then defined what is a Turkish citizen.
    Senator Brownback. OK, give me a better----
    Dr. al-Khafaji. That's why----
    Senator Brownback. Give me a better model.
    Dr. al-Khafaji [continuing]. That's why they forced all 
non-Muslims to go out and that I do not want. This is what I, 
in my writing----
    Senator Brownback. I'll let you go on, but if you don't 
have a country I want to go to Noah and have him give me a 
country.
    Dr. al-Khafaji. I would like----
    Senator Brownback. If you do have a country----
    Dr. al-Khafaji. If you allow me to comment on your----
    Senator Brownback. I will let you. I just want to get an 
answer to this question.
    Dr. al-Khafaji [continuing]. To show how and where I 
totally agree with you.
    Senator Brownback. And if you don't, that's fine. I'll let 
you comment but I just want to get an answer to this question. 
Noah, do you have a country that's a better model?
    Dr. Feldman. Indonesia is a far better example than Turkey, 
as is Malaysia, and in Malaysia, to take another----
    Senator Brownback. Indonesia has a secular constitution?
    Dr. Feldman. It does, but its democratic process relied 
very heavily on the full participation of Islamic parties and 
the first democratically chosen President of the country and 
also the first President to leave office voluntarily in the 
country, Abdurrahman Wahid, was himself a cleric, a Muslim 
cleric, that's what he did for a living----
    Senator Brownback. I have no problem with that.
    Dr. Feldman [continuing]. And a member of the Islamic 
party. So if I might, Senator----
    Senator Brownback. Let me ask you on Malaysia now, and you 
assert----
    Dr. Feldman. An even better example.
    Senator Brownback. Malaysia as a better, as a better----
    Dr. Feldman. It's also a better example, and in Malaysia 
one sees examples of the government very creatively drawing on 
Islamic institutions to create democratic institutions. So for 
example, the role of the traditional Islamic marketplace 
supervisor under Islamic law has been used as a kind of 
ombudsman for purposes of ensuring basic rights and economic 
liberties.
    There's creativity in the Malaysian example. It's not that 
Malaysia is a perfect democracy by any stretch of the 
imagination. But, of course, none of the governments in the 
region are perfect examples. I think the serious concern is 
that if we share--and I do share, Senator, very deeply your 
commitment to creating religious liberty and spreading it 
through the region in a region where it's terribly lacking, the 
question is, what's the best strategy for producing that? And 
it seems to me the best strategy is convincing people, the 1.2 
billion Muslims in the world, that democracy is not something 
that stands in opposition to their values, but that stands 
consistently with their values.
    And many people in the Muslim world have the misconception 
that somehow in the United States we don't take our religion 
seriously. They think we're a secular society, which I think is 
inaccurate. I think we're a society in which people take their 
religion and their faith deeply personally and which it matters 
tremendously to all of their important life decisions, but that 
our state doesn't dictate religious outcomes. And in order to 
convince people in the Muslim world of that, we need to make 
sure that symbolically we show them that democracy is 
consistent with religion and we need to emphasize religious 
liberty at all costs----
    Senator Brownback. Let's take that point.
    Dr. Feldman [continuing]. And insist on strong religious 
liberty while simultaneously allowing people, if they want some 
symbolic recognition of their religion in the constitution----
    Senator Brownback. Now, wait a minute, now wait a minute. 
When you build something into the constitution, it's more than 
symbolic. I mean, if we're pressing this issue, if you build 
something into the constitution, it's not symbolic. This is 
critical in a constitution.
    Dr. Feldman. Senator, I think the preamble to our 
Constitution, which does more than any other part of our 
Constitution to specify our values, is never invoked by the 
Supreme Court as binding for important constitutional 
decisions, and the reason for that is that----
    Senator Brownback. Oh, but being symbolic, you cannot say 
any part of the Constitution is just a symbolic. These words 
are interpreted and have deep meaning, particularly when you're 
talking about civil rights and liberties, and you're really 
setting a key pattern here.
    Dr. Feldman. Well, I agree with that. I agree with that, 
Senator. It's important to get the values right, but if we 
insist, if we--first of all, assuming we could insist--if we 
insisted as a foreign power that the constitution not reflect 
Islam as a religion, which is the religion of the vast majority 
of Iraqis, we're opening the doors for opponents of democracy 
in the region--and they are legion and many of them are in fact 
serious Islamists--to say that the United States is engaged in 
an anti-Muslim project in the world.
    And Senator, let me guarantee you of just one thing. That's 
a perception, which if shared by more of the world's 1.2 
billion Muslims, guarantees that we won't succeed in spreading 
democracy in the region. So the question is do we want to throw 
out the baby with the bath water here.
    Senator Brownback. I think it would probably be tough to 
get more that would share it than now. I think it's pretty high 
right now. And let me just predict to you all you're the expert 
panel, Joe made a prediction earlier, I'll make a prediction to 
you if we put in, allow in, we say, you know, it's not a red 
line, I think somebody put a red line, if we put a red line, 
you can't create a Kurdish state, that's a foreign power 
intervention, we say, you've got to give equal rights Sunni, 
Shi'ite, we say that's red line if we allow this, we say you 
write in the constitution this is an Islamic country, you're 
going to see significant problems with this on down the road. 
It's going to be we've seen it consistently already.
    Dr. Feldman. Senator, would you concede though that on the 
other side of the----
    Senator Brownback. I'm just predicting to you guys and then 
you can come back in 5 years and it's in and you'll say, look, 
I told you that wasn't true. And I'm telling you from my 
experience I think you are going to be off and you will wish 
that we would have identified this as a really critical issue.
    Dr. Feldman. Senator, I think you're likely to be right 
about that, but the question is, if we do draw a red line 
there, what problems will we face down the road? It's entirely 
possible that those might be much worse problems.
    Dr. al-Khafaji. May I comment, sir, now?
    Senator Brownback. Please, I told you I--unless the 
chairman has to go.
    The Chairman. Please go ahead.
    Dr. al-Khafaji. I'm afraid that we are discussing a 
hypothetical question and I'm sorry if that is disappointing. 
Never in the history of Iraq, nowhere today, nobody including 
the most extremist is talking about an article in the proposed 
or an ex-constitution in Iraq that says Iraq is an Islamic 
country. Let me just show where the delicate difference is, if 
you allow me.
    Senator Brownback. That nobody's saying that Iraq is an 
Islamic country in the constitution?
    Dr. al-Khafaji. In a constitution, no, sir, no serious 
person. I'm sure there is one or some political leader. The 
question is----
    Senator Brownback. Let me just read from Dr. Feldman's 
testimony to make sure I get it right. ``At the same time it is 
unlikely that the majority of Iraqis would agree to the 
omission from their constitution of a provision describing 
Islam as the official religion of the state. Every Arab 
constitution has such a provision.'' And then you go on to talk 
about that.
    Dr. al-Khafaji. Sir, there was about the national the 
nature of Iraq as an ethnicity, there was a huge debate whether 
it is an Arab country or not, and the democratic Iraqis, Arabs 
and Kurds, naturally, as well as the Kurds, fought that, 
whether Iraq is part of an Arab nation or not. About Islam, the 
whole debate revolves around this: an article that used to be 
in the constitutions, Islam is the source of legislation or 
Islam as a source of legislation. Until now, we and by we, I 
mean all generations naturally we fought that ``the'' that 
cursed ``the'' because once you put ``the'' source of 
legislation then you are putting all other sources as 
blasphemous, as you said.
    Senator Brownback. OK. So let me ask you on that, does that 
not outlaw Shari'ah law then in Iraq?
    Dr. al-Khafaji. Iraq has a penal code which is literally 
taken from the Napoleonic code.
    Senator Brownback. No, but I'm asking you in the 
constitution to be written, does that outlaw Shari'ah law in 
Iraq? Does that say it's not we are not going that's a red 
line, not going to Shari'ah law?
    Dr. al-Khafaji. That's where the fight between democrats 
and tyrants should go in Iraq, and I totally agree with my 
colleagues, and it might look ironical with you, too. We do 
not, as human being, would not like others, as you said that 
the government decides for us what my religion is. Please 
imagine an Iraqi being told what he or she should think about 
religion by the U.S. Government. You said quite rightly, sir, 
that you would not like a government, your government to tell 
you how your system of beliefs should be made, but the 
implication is that the U.S. administration should tell Iraqis 
how they should form their system of beliefs. I as a----
    Senator Brownback. No, then I'm not declaring. I'm not 
saying you declare any religion the state religion of Iraq.
    Dr. al-Khafaji. Exactly. Until now, until now and this is 
not drawing a rosy picture and modestly speaking I claim to 
know our history, the region's history, there were bloody 
clashes between Muslims and Christians in the 19th century, 
Damascus and Lebanon. There were none in Iraq. There were no 
clashes, civil clashes, between Shi'is and Sunnis in Iraq. Is 
this an ideal solution? Not necessarily. Is there a sense of 
difference? Yes, there is.
    The idea is this, how to go from here to a better 
situation, and I think that if we can put into the legislation 
that no authority has the right to declare any other person or 
group blasphemous, that would be a turning point in our 
history.
    Senator Brownback. That would be very helpful.
    Dr. al-Khafaji. For us as Iraqis, Senator, for us tyranny 
could take the form of secularism and Stalin and Saddam Hussein 
are no different from an ayatollah for us, because it's tyranny 
whether it's secular or fundamentalist.
    Senator Brownback. Well, I want to declare as I close, Mr. 
Chairman, I am not trying to impose any religion on Iraq.
    Dr. al-Khafaji. I quite understand that.
    Senator Brownback. You say that in our history this has 
been a big, long struggle, and wisely the Founders started off 
by saying no state-sponsored recognized, identified, religion. 
It's good for the country, it's good for the religion.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Brownback. Let 
me just conclude with a small question now. A constitutional 
group has been appointed as I understand it. Correct me if I'm 
wrong as to who is to form this constitution, but should the 
group that is in place or in formation be the one? If not, who 
should do the work on the constitution, which we all agree 
should be happening in a timely way? Or do you take the 
position that you do not try to do the constitution at this 
point? Do you constitute some people either by election or by 
appointment as the governing group and then work on the 
constitution? What advice, if you were giving it to Ambassador 
Bremer and CPA, would you give? Yes.
    Dr. Marr. I'm just going to take a crack at it and I'm sure 
you're going to get different answers. Those writing a 
constitution should be a pretty representative group because 
these issues have to be fought out. However, a smaller group is 
better than a bigger one. I would feel comfortable if this 
small group came up with a draft, and then it was published and 
discussed, and so on. But if this constitution isn't ratified, 
and discussed by a larger group, which perhaps has the ability 
to amend it, its legitimacy is going to be in question.
    The Chairman. OK. Mr. Khouri.
    Mr. Khouri. I would just make the general point that these 
decisions have to be made by the Iraqi people. If you want to 
democratize Iraq you should democratize it democratically, in 
other words consult with Iraqis a lot more and a much wider 
range of Iraqis than has been the case to date. And the dilemma 
that Senator Biden and all of you have mentioned is a very real 
one. The United States is in what is known as a pickle. You're 
in a very difficult situation and it's not easy to get out of 
it.
    The way to get out of it is to make clear that these major 
decisions have to be made through a consensus of Iraqis and 
this illustrates the point that I made in the beginning, which 
is if you start getting into details about religion and the 
constitution and who does the constitutions and these little 
nitty-gritty details, you're never going to find a satisfactory 
solution, you're always going to be accused of trying to impose 
American values. I think it's much better to look at the 
society there, what are the values that they have that you 
share, and I would say in the case of say the religious issue 
in the constitution, it's the principle of the consent of the 
majority and the protection of the minority, the rights of the 
minority and the will of the majority.
    If you can make it clear to the Iraqis and other Arabs 
that's what you're doing, they will be very eager to work with 
you, and I think that would diffuse a lot of the tension.
    The Chairman. Dr. Feldman.
    Dr. Feldman. Senator, just for clarification, the 
constitutional preparatory committee as presently constituted 
doesn't plan to write the constitution. They plan to propose 
just a mechanism for selecting a constitutional convention or a 
constitutional drafting commission that will then produce the 
draft of the constitution. And they're considering a range of 
options including a constituent assembly option, including the 
option of having a group nominated by the Governing Council and 
ratified by a national referendum, up or down, including a 
process of selection and election together.
    So I would advise Ambassador Bremer, and did advise 
Ambassador Bremer, that the process question is one best left 
to the Iraqis at this stage to make a proposal on.
    The Chairman. What was your recommendation in terms of the 
timeframe of this group? I think Ambassador Bremer mentioned 
that they were going around the countryside visiting with lots 
of people. At what point will they bring their work to 
conclusion?
    Dr. Feldman. They need to complete that national canvass, 
but I think this preparatory committee should conclude its 
deliberations in the next 2 months in order for us to go 
forward very rapidly with creating a convention.
    The Chairman. Very well.
    Dr. al-Khafaji.
    Dr. al-Khafaji. I'm not very much in difference with my 
colleagues, Mr. Chairman. I think that you have to give some 
form of legitimacy. We would do injustice even to these 
esteemed colleagues who are on this constitutional committee if 
we show them as imposed by the coalition or even by the 
Governing Council. Let a constituent assembly decide on them or 
let it just choose a committee out of it, but give it some form 
of legitimacy, sir.
    The Chairman. Meanwhile, as we all would, I suppose, 
recognize, the United States and other countries that work with 
us have to keep a security situation in which all this can keep 
going on. That is not easy. As all of you have pointed out, 
even while we're trying to maintain the security situation, and 
pass on responsibility to Iraqis to take more and more 
responsibility as they're prepared to do that, both Americans 
and Iraqis will be attacked. Some will lose their lives. This 
is a process that is tortuous for everybody involved.
    There is good reason for timeliness of movement. At the 
same time there is, I think, a feeling on the part of most of 
us in the Senate that the product of all of this needs to be a 
good one or history will find all the parties sorely deficient, 
and the Iraqi people will suffer the most because the 
deficiencies will be visited and left with them. So we 
appreciate very much your wisdom and your candor today and your 
willingness to think along with us in what I think has been a 
very productive hearing as far as our own understanding goes, 
as well as, through the record, for the illumination of our 
colleagues.
    Do you have a further comment?
    Senator Brownback. No thank you, Mr. Chairman.
    The Chairman. Very well. We thank you and the hearing is 
adjourned.
    (Whereupon, at 5:07 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.)


</pre></body></html>
